No. ____
IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020
___________________________________________
VIRGIL DELANO PRESNELL,
Petitioner
-vBENJAMIN FORD, Warden,
Georgia Diagnostic Prison,
Respondent.
___________________________________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
___________________________________________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
Capital Case
___________________________________________
*Monet Brewerton-Palmer
Federal Defender Program, Inc.
101 Marietta Street, Suite 1500
Atlanta, Georgia 30303
404-688-7530
Monet_Brewerton@fd.org
*Counsel of Record
Counsel for Virgil Delano Presnell

INDEX
Petitioner’s Appendix 1, Opinion, Eleventh Circuit Court of Appeals
Petitioner’s Appendix 2, Order Denying Rehearing, Eleventh Circuit
Court of Appeals
Petitioner’s Appendix 3, Order Denying Habeas Relief, United States
District Court, Northern District of Georgia
Petitioner’s Appendix 4, Opinion Denying Habeas Relief, Superior
Court of Butts County, Georgia
Petitioner’s Appendix 5, Opinion Denying Certificate of Probable
Cause to Appeal Denial of Habeas Corpus, Supreme Court of Georgia
Petitioner’s Appendix 6, Order Affirming Conviction, Supreme Court
of Georgia

1

Petitioner’s Appendix 1

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 1 of 69

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
__________________________
No. 17-14322
__________________________
D.C. Docket No. 1:07-cv-1267-WBH
VIRGIL DELANO PRESNELL,
Petitioner-Appellant,
versus
WARDEN.
Respondent-Appellee.
__________________________
Appeal from the United States District Court
for the Northern District of Georgia
__________________________
(September 16, 2020)

Before ROSENBAUM, TJOFLAT, and ED CARNES Circuit Judges.
TJOFLAT, Circuit Judge:
Virgil Delano Presnell, Jr., appeals the District Court’s decision denying his
petition for writ of habeas corpus vacating the death sentence he received for a
murder he committed in 1976. In a bifurcated trial held that year, a jury found him

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 2 of 69

guilty of the murder in the guilt phase and returned a death-sentence verdict in the
sentencing phase. Subsequently, in a collateral proceeding brought in 1985, that
verdict was vacated. In 1999, a retrial of the sentencing phase was held. The
result was the same: a death sentence.
The issue in this appeal is whether the lawyers who represented Petitioner at
the 1999 retrial deprived him of his constitutional right to the effective assistance
of counsel in failing to attain and present mitigation evidence. In seeking
mitigating evidence, one of the lawyers’ investigators interviewed Petitioner’s
mother, who reported that she “did not drink except socially” while pregnant with
Petitioner. In an affidavit submitted to the District Court in support of his habeas
petition, though, his mother stated that she drank bourbon to excess throughout her
pregnancy. Also submitted were the reports of two psychologists diagnosing
Petitioner with fetal alcohol spectrum disorder, a diagnosis reached in large part on
the basis of his mother’s affidavit.
I.
The circumstances that gave rise to this habeas petition in this case harken
back to 1976. On July 1 of that year, a grand jury indicted Petitioner, Virgil
Delano Presnell, Jr., for four felonies he committed on May 4, 1976, after
encountering two girls walking home from school, L.S., age eight, and A.F., age
ten. Two of the felonies, malice murder, a capital offense, and kidnapping,
2

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 3 of 69

involved L.S. Two of the felonies, kidnapping with bodily injury and forcible
rape, both capital offenses, involved A.F.1 Petitioner stood trial in the Superior
Court of Cobb County in August 1976. The jury found him guilty as charged at
the conclusion of the guilt phase and imposed a death sentence for each capital
offense in the penalty phase. On direct appeal, the Georgia Supreme Court
described the jury’s verdicts and the sentences imposed: “The jury imposed the
penalty of death for the murder of [L.S.], the kidnapping with bodily injury of
[A.F.], and the rape of [A.F.]. [Petitioner] was sentenced to twenty years in prison
for the kidnapping of [L.S.].” Presnell v. State (Presnell I), 243 S.E.2d 496, 500
(Ga. 1978).
The procedural history that followed is long. The Georgia Supreme Court
affirmed Petitioner’s convictions and the death sentence imposed for the murder; it
vacated the death sentences for kidnapping with bodily injury and forcible rape. 2

1

The indictment also charged Petitioner with aggravated sodomy of A.F. The charge
was dropped prior to Petitioner’s trial.
2
The U.S. Supreme Court recounted the Georgia Supreme Court’s reasoning:
[The first two death sentences] depended upon petitioner’s having committed
forcible rape, and the [Supreme Court of Georgia] determined that the jury had not
properly convicted petitioner of that offense.
In addition, the Supreme Court of Georgia held that the State could not rely upon
sodomy as constituting the bodily injury associated with the kidnaping.
Nonetheless, despite the fact that the jury had been instructed that the death penalty
for murder depended upon a finding that it was committed while petitioner was
engaged in “kidnapping with bodily harm, aggravated sodomy” (emphasis added),
the Georgia Supreme Court upheld the third death penalty imposed by the jury. It
did so on the theory that, despite the lack of a jury finding of forcible rape, evidence
in the record supported the conclusion that petitioner was guilty of that offense,

3

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 4 of 69

Id. at 500, 508. The United States Supreme Court, on certiorari review, reversed
the conviction for kidnapping with bodily injury and the death sentence for the
murder and remanded the case for further proceedings.3 Presnell v. Georgia, 439
U.S. 14, 99 S. Ct. 235 (1978). On remand, the Georgia Supreme Court reinstated
the death sentence for the murder and the conviction for kidnapping with bodily
injury.4 Presnell v. State (Presnell II), 252 S.E.2d 625, 626–27 (Ga. 1979). In
addition, it reduced the forcible rape conviction to a conviction for statutory rape.
Id.
The Georgia Supreme Court’s decision in Presnell II brought an end to the
appellate review of Petitioner’s 1976 trial. Petitioner filed successive habeas
corpus petitions in state and federal courts over the next twelve years. He sought
to vacate his convictions and death sentence, contending that he had been
convicted and sentenced to death in violation of the United States Constitution. 5

which in turn established the element of bodily harm necessary to make the
kidnapping a sufficiently aggravating circumstance to justify the death sentence.
Presnell v. Georgia, 439 U.S. 14, 15–16, 99 S. Ct. 235, 236 (1978).
3
The U.S. Supreme Court held that in the absence of a jury finding of forcible rape, a
death sentence could not be upheld on the basis that evidence in the record supported a
conclusion that Petitioner was guilty of forcible rape, which in turn established the element of
bodily harm necessary to make kidnaping an aggravating circumstance. Presnell v. Georgia, 439
U.S. 14, 99 S. Ct. 235 (1978).
4
The Court concluded that the death sentence was supported by the jury’s “finding of
kidnapping with bodily injury, aggravated sodomy of [A.F.]” and that aggravated sodomy
“suppl[ied] the element of bodily injury required for the kidnapping [with bodily injury]
offense.” Presnell II, 252 S.E.2d at 627.
5
Petitioner filed his first petition for habeas corpus on January 8, 1980. Petitioner
petitioned the Superior Court of Butts County, Georgia, for a writ of habeas corpus. His

4

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 5 of 69

Petitioner prevailed in part when the United States District Court for the Northern
District of Georgia issued a writ of habeas corpus vacating Petitioner’s death
sentence, which we affirmed.6 Presnell v. Zant (Presnell III), 959 F.2d 1524 (11th
Cir. 1992). The Court issued the writ because the prosecutor’s argument to the

amended petition contained twelve counts, numbered fifteen through twenty-six. Counts fifteen
through seventeen challenged the validity of grand and traverse Cobb County juries that indicted
and convicted him. Count eighteen alleged that his trial attorney was constitutionally ineffective
in failing to timely challenge the validity of the respective juries. Counts nineteen through
twenty-three challenged the selection and composition of Cobb County juries. Counts twentyfour and twenty-five alleged that Petitioner was tried while mentally incompetent. Count
twenty-six alleged that Petitioner’s attorneys provided ineffective assistance of counsel in failing
to develop and present mitigating evidence at the penalty phase of his trial. On January 23,
1980, the Superior Court, following an evidentiary hearing, denied his petition; on March 19,
1980, the Georgia Supreme Court denied his application for a certificate of probable cause to
appeal; and on October 6, 1980, the U.S. Supreme Court denied certiorari review. Presnell v.
Zant, 449 U.S. 891, 101 S. Ct. 245 (1980).
On June 15, 1981, Petitioner petitioned the U.S. District Court for the Northern District
of Georgia for habeas relief pursuant to 28 U.S.C. § 2254. The Court dismissed his petition on
January 13, 1984, because he failed to exhaust his state remedies. So, he returned to the Superior
Court of Butts County on January 26, 1984, filing a second habeas petition. On October 6, 1984,
the Court denied the petition as successive, and the Georgia Supreme Court denied his
application for a certificate of probable cause to appeal on November 16, 1984. See Presnell v.
Kemp, 835 F.2d 1567 (11th Cir. 1988).
6
On May 15, 1985, Petitioner filed a second petition for habeas corpus relief in the U.S.
District Court for the Northern District of Georgia. The Court granted the petition in part,
vacating Petitioner’s death sentence on the ground that the trial court, in the penalty phase of his
trial, gave the jury an improper burden shifting instruction. The State appealed, and this Court
reversed the District Court’s decision and remanded the case for further proceedings. Presnell v.
Kemp, 835 F.2d 1567, reh’g en banc denied, 854 F.2d 1326 (11th Cir. 1988), cert. denied, 488
U.S. 1050, 109 S. Ct. 882 (1989). On remand, the District Court, on July 11, 1990, vacated
Petitioner’s death sentence again, which we explain in the accompanying text. See Presnell v.
Kemp, 835 F.2d 1567 (11th Cir. 1988); see also Presnell v. Hall, No. 1:07-CV-1267-CC, 2013
WL 1213132 (N.D. Ga. Mar. 25, 2013).

5

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 6 of 69

jury at the close of the penalty phase of his trial was so egregious that it rendered
the proceeding fundamentally unfair and thus a denial of due process of law.7
The District Court issued the writ of habeas corpus without prejudice to the
State’s right to retry the penalty phase of Petitioner’s trial. The State waited until
late 1997 to notify Petitioner that it had elected to retry the penalty phase. Shortly
thereafter, the Superior Court of Cobb County reopened Petitioner’s case. Since
Petitioner was indigent, the Superior Court, in the first week of January 1998,
appointed two attorneys to represent him, Stephen Schuster and Mitch Durham (we
refer to Schuster and Durham collectively as Defense Counsel). Attorney Dianna
McDaniel also represented Petitioner. Defense Counsel hired McDaniel with

7

In its closing argument during the sentencing phase of Petitioner’s trial, the prosecutor
quoted from Eberhart v. Georgia, 47 Ga. 598 (1873). The prosecutor said:
We have, however, no sympathy with that sickly sentimentality that springs into
action whenever a criminal is at length about to suffer for crime. It may be a sign
of a tender heart, but it is also a sign of one not under proper regulation. Society
demands that crime shall be punished and criminals warned, and the false humanity
that starts and shudders when the axe of justice is ready to strike, is a dangerous
element for the peace of society. We have had too much of this mercy. It is not true
mercy. It only looks to the criminal, but we must insist upon mercy to society, upon
mercy [sic] to the poor woman whose blood cries out against her murderers. That
criminals go unpunished is a disgrace to our civilization, and we have reaped the
fruits of it in the frequency in which bloody deed [sic] occur. A stern, unbending,
unflinching administration of the penal laws, without regard to position or sex, as
it is the highest mark of our [sic] civilization, it [sic] is also the surest mode to
prevent the commission of offenses.
Presnell III, 959 F.2d at 1528.

6

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 7 of 69

funds provided by the Cobb County Circuit Defender’s Office pursuant to an order
the Superior Court entered on September 11, 1998.
The penalty-phase retrial began on February 22, 1999, before a newly
summoned jury. On March 16, the jury returned a death-sentence verdict, and the
Superior Court sentenced Petitioner accordingly. On appeal, the Georgia Supreme
Court affirmed Petitioner’s sentence. Presnell v. State, 551 S.E.2d 723 (Ga. 2001),
cert. denied, Presnell v. Georgia, 535 U.S. 1059, 101 S. Ct. 1921 (2002).
On October 16, 2002, Petitioner petitioned the Superior Court of Butts
County for a writ of habeas corpus. His petition presented forty-three claims for
relief, each asserting a violation of a state or federal constitutional right. Some of
the claims sought the vacatur of his convictions. Others sought the vacatur of his
death sentence on the theory that Defense Counsel denied Petitioner his Sixth
Amendment right to the effective assistance of counsel, as explicated in
Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984), 8 in preparing for
and presenting Petitioner’s defense at the retrial of the penalty phase. One of the
ways in which Defense Counsel were allegedly derelict is that they failed to
discover that Petitioner suffered from Fetal Alcohol Spectrum Disorder (“FASD”)

8

The Sixth Amendment states: “In all criminal prosecutions, the accused shall enjoy the
right . . . to have the Assistance of Counsel for his defense.” U.S. Const. amend. VI. The
Amendment has been made applicable to the States through the Due Process Clause of the
Fourteenth Amendment. Parker v. Gladden, 385 U.S. 363, 364, 87 S. Ct. 468, 470 (1966).

7

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 8 of 69

which accounted for his behavior on May 4, 1976 (the “FASD” claim). On
December 27, 2005, following an evidentiary hearing, the Superior Court denied
the petition. And on November 6, 2006, the Georgia Supreme Court denied
Petitioner’s application for a certificate of probable cause to appeal the Superior
Court’s judgment.
Having exhausted his state court remedies, Petitioner, on June 1, 2007,
turned once more to the Northern District of Georgia for habeas corpus relief. His
§ 2254 petition presented forty claims; he attacked both his convictions and death
sentence on multiple constitutional grounds. Petitioner presented several
ineffective assistance claims, including the FASD claim, which the Superior Court
of Butts County had denied. Petitioner argued that the Superior Court, in denying
the claims, misapplied Strickland v. Washington. The District Court was not
persuaded. It denied all of Petitioner’s claims, including the ineffective assistance
claims. Petitioner applied to the District Court for a certificate of appealability
(“COA”) so he could appeal its decision. See 28 U.S.C. § 2253(c). The Court
granted his application but limited it to one issue: whether Defense Counsel were
constitutionally ineffective in failing to discover that Petitioner suffered from
FASD.

8

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 9 of 69

II.
A.
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
limits the circumstances in which a federal court may grant a writ of habeas corpus
setting aside a state court judgment adjudicating a claim alleging the denial of a
constitutional right:
Under AEDPA, a federal court may not grant a habeas corpus
application with respect to any claim that was adjudicated on the merits
in State court proceedings, 28 U.S.C. § 2254(d), unless the state court’s
decision was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of
the United States, § 2254(d)(1).
Johnson v. Upton, 615 F.3d 1318, 1329 (11th Cir. 2010) (quoting Berghuis v.
Thompkins, 560 U.S. 370, 380, 130 S. Ct. 2250, 2259 (2010)) (quotation marks
omitted).
In this appeal, we ask whether the District Court erred in deciding that the
Superior Court of Butts County’s decision was not (1) “contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined” in
Strickland v. Washington, see 28 U.S.C. § 2254(d)(1), or (2) “based on an
unreasonable determination of the facts in light of the evidence presented in the

9

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 10 of 69

state court proceeding,” 28 U.S.C. § 2254(d)(2). 9 That is, we determine de novo
whether the District Court erred in rendering either decision.
In answering these questions, we keep two principles in mind. First, “[a]
state court’s determination that a claim lacks merit precludes federal habeas relief
so long as ‘fairminded jurists could disagree’ on the correctness of [the state
court’s] decision.” Harrington v. Richter, 562 U.S. 86, 101, 131 S. Ct. 770, 786
(2011) (quoting Yarborough v. Alvarado, 541 U.S. 652, 664, 124 S. Ct. 2140, 2149
(2004)). Second, the state court’s findings of fact are “presumed” to be correct. 28
U.S.C. § 2254(e)(1). Thus, if a petitioner challenges a state adjudication that rests
on findings of fact, he must overcome two hurdles. He must rebut the presumption
of correctness that attaches to the findings of fact, and he must do so with “clear
and convincing evidence.” Id. And he must overcome the deference that we give
to the state court’s adjudication under § 2254(d).
To prevail under Strickland v. Washington, a petitioner must show (1) that
his trial “counsel’s performance was deficient” and (2) that it “prejudiced [his]
defense.” 466 U.S. at 687, 104 S. Ct. at 2064. He satisfies the second element
only on showing that there is “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A

9

These are the same questions the District Court answered in deciding whether the
Superior Court’s decision was deficient under 28 U.S.C. § 2254(d)(1) or (2).

10

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 11 of 69

reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Id. at 694, 104 S. Ct. at 2068. “It is not enough ‘to show that the errors
had some conceivable effect on the outcome of the proceeding.’” Richter, 562
U.S. at 104, 131 S. Ct. at 787 (quoting Strickland, 466 U.S. at 693, 104 S. Ct. at
2067). Instead, “[c]ounsel’s errors must be ‘so serious as to deprive the defendant
of a fair trial, a trial whose result is reliable.’” Id., 131 S. Ct. at 787–88 (quoting
Strickland, 466 U.S. at 687, 104 S. Ct. at 2064).
B.
The District Court ruled on the same record on which the Superior Court of
Butts County denied Petitioner’s application for a writ of habeas corpus on
December 27, 2005. The record includes a transcript of Petitioner’s trial in August
1976; the record before the Georgia Supreme Court in Petitioner’s appeal of his
convictions and death sentences, and that Court’s opinion affirming them; material
parts of the proceedings the Superior Court of Butts County held on the habeas
petition Petitioner filed on January 8, 1980;10 the transcript of Petitioner’s trial in
February and March of 1999, the record before the Georgia Supreme Court in
Petitioner’s appeal of his death sentence, and that Court’s opinion affirming the
sentence; and the evidence the Superior Court received in the habeas proceedings
in reaching its December 27, 2005 decision—specifically, the evidence bearing on

10

See note 5, supra.

11

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 12 of 69

Defense Counsel’s preparation for and presentation of Petitioner’s defense at the
penalty phase retrial, which, according to Petitioner, constituted deficient
performance under Strickland.11
In part III.A below, we visit Petitioner’s 1976 trial. We recite the facts on
which the jury found Petitioner guilty as charged, the aggravating circumstances
the State presented in seeking death sentence verdicts, and the testimony
Petitioner’s counsel presented in urging the jury to return life-sentence verdicts.
The 1976 trial informed Defense Counsel of what the State would present at the
penalty phase retrial and the task they faced in presenting a defense that would
mitigate the State’s case for a death sentence. In subsection B, we introduce
Defense Counsel and the team they assembled, set out the investigatory steps they
took in preparing for the retrial, and recount what their investigation revealed.
Subsection C recounts what took place at the retrial.
Part IV focuses in subsection A on the litigation of Petitioner’s ineffective
assistance of counsel claim in the Superior Court of Butts County, specifically, the
FASD claim; in subsection B on the District Court’s decision under AEDPA not to

11

The record in this appeal does not include the records of the habeas petition Petitioner
filed in the Northern District of Georgia on June 15, 1981; the habeas proceedings brought in the
Superior Court of Butts County on January 26, 1984; or the proceedings held in Presnell III. See
notes 5 & 6, supra.

12

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 13 of 69

disturb the Superior Court’s denial of that claim; and in subsection C on our
conclusion that the District Court did not err.
III.
A.
1.
The Georgia Supreme Court, in its Presnell I opinion affirming the
convictions and death sentences resulting from the 1976 jury trial, provided
Defense Counsel with the facts the State would present in support of its quest for a
death sentence. Here are the facts the State would present 12:
The defendant was seen the day before the crimes by a lady who
was picking up her children from school. He was returning to his blue
car which was parked a short distance away from the school. At [his]
trial [on the July 1, 1976 indictment,] the defendant took the stand and
explained that he had walked to the wooded area across from the school
where he watched the little girls through binoculars while he played
with himself. He testified that he had frequently visited adult
bookstores and movies, and that he was reading a book entitled “He
Warmed Her Young Body.” He returned the next day . . . and saw two
little girls walk from the school down a road beside the woods. The
defendant was again seen by the same lady who had observed him the
day before. The defendant testified that he had driven to the wooded
area near the school where he again watched the little girls. He had
brought a sleeping bag, a rug, a jar of lubricant and rope. He waited for
the two children, one of whom he said reminded him of the girl in his
book. The girls entered the wooded area on a path which led to their
homes on the other side, a distance of less than five hundred yards. The
older child was ten years old, the younger child was eight. The
defendant grabbed them from behind, covered their mouths with his
hand and told them he would use the gun in his pocket if they did not

12

At the 1976 trial, George W. Darden, III, District Attorney for Cobb County, Georgia,
represented the State. J. Milton Grubbs, Jr., William P. Holley, and Adele Platt, court-appointed
attorneys, represented Petitioner.

13

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 14 of 69

do as told. He tied them but then untied them and took them to his car
and drove away with them.
The mother of the younger child became concerned and drove to
the school. Finding the lights out in her daughter’s schoolroom, she
walked the path through the wooded area. On the trail she found school
books in which the older child’s name had been written. She contacted
the school principal, her husband, and the police. With neighbors and
other volunteers the parents of the two children continued searching for
them.
After stopping for gasoline at a self-service station, the defendant
drove to an unpopulated wooded area. He testified that on the way and
while he was driving, he had the older child place his sex organ in her
mouth. At the secluded area, he took a blue rug and jar of lubricant
from the car trunk and went into the wooded area with the children. He
had the children remove their clothing and caused the older child to lie
on the rug. He testified that he then removed his clothes and penetrated
the older child. When he stopped she was bleeding. Her vagina was
torn and required surgery for repair. He let the children dress. The
older child was slower, so he took the younger child back toward the
car first.
Along the way the younger child ran away from the trail. He
chased her across a narrow, shallow creek. In his taped confession he
said, “Well, when we got down to the creek, I don’t really know why,
but I just pushed her down into the creek and held her there. Well, she
was kicking and trying to get out but I just held her there until she
stopped kicking. Well, I figured she was dead and for some reason I
didn’t want to leave her in the creek and that is the reason I carried her
out of the creek and layed her down.” At trial the defendant testified
that he accidentally fell on top of the fallen younger child who was still
gasping for air as he pulled her to the creek bank and departed. The
autopsy indicated that the cause of her death was drowning.
The defendant returned to the older child and took her towards a
nearby section of the creek where he again had her place his sex organ
in her mouth. Next, the defendant put the older child in the trunk of his
car.
After driving some distance, a tire on the defendant’s car lost air
pressure. He left the older child in another wooded area near a service
station and drove to his mother’s nearby residence to repair the tire.
The child found help at the service station. She told police that the man
14

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 15 of 69

was driving a blue car and had had tire trouble. The defendant was
found by police installing a tire on his car.
During the course of his testimony at trial the defendant admitted
acts showing commission of each of the crimes (except the murder) for
which he was convicted. (In his confession to police he admitted facts
showing murder.) He testified that because the children did not protest,
he did not believe at the time of the crimes that his acts were wrong.
The court’s expert witness, who had supervised a court-ordered
psychiatric examination of the defendant, testified that he had no reason
to believe that the defendant did not know right from wrong.
Presnell I, 243 S.E.2d at 500–01.
As indicated in the passages quoted above, Petitioner testified in his defense
during the guilt phase of his trial. Petitioner was the only witness counsel put on in
his defense. The jury had already heard his confession; his testimony gave him an
opportunity to explain it. His testimony supported the two-fold theory of his
defense: (1) the drowning of L.S. was an accident, and (2) he did not understand
that kidnapping and rape were wrong.
Petitioner explained that he had been acquiring pornographic books
involving adult men and children for a long time. What he read and saw—in
particular, depictions of men having sexual intercourse with young girls—gave
him the urge to seek out young girls, according to Petitioner. Counsel’s theory was
that his consumption of pornographic media explained why he kidnapped the two
girls, so counsel had him tell the jury about it. Counsel then asked Petitioner to
describe what took place on May 4, 1976, and the day before.

15

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 16 of 69

Petitioner’s response was consistent with what the State’s evidence had
portrayed. On May 3, the day before he abducted L.S. and A.F, he hid in the
bushes across from their school13 and, while “play[ing] with himself,” watched
with binoculars the children leaving school. He seized L.S. and A.F. the next day
as they were walking through the woods. He said he did it because A.F. reminded
him of a girl in one of his pornographic books. He did not think it would hurt her.
When he realized that she was bleeding he stopped and asked A.F. and L.S., who
he also had forced to undress, to put their clothes back on. While A.F. was
dressing, L.S. ran away, and he gave chase. They came upon a creek, and she fell
in. He stumbled and fell on top of her. He got up and pulled her out of the creek.
She was gasping for air, so he compressed her chest and departed to look for A.F.
He found her, put her in the trunk of his car, and drove to his mother’s apartment to
change out of his wet clothes. He left L.S. behind, assuming that she was alright
and could leave the woods on her own. He did not intend to kill her.
On cross-examination, Petitioner acknowledged that his explanation of
L.S.’s death conflicted with what he stated in his May 4 confession—that he
pushed her down in the creek and held her there until she stopped moving. He

13

The Richard B. Russell Elementary School in the City of Smyrna in Cobb County,

Georgia.

16

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 17 of 69

explained the statement by saying that, at the time of his confession, he “really
didn’t care what happened to [him].”
On redirect examination, Petitioner said that he was unaware of the crime of
kidnapping when he seized the two girls on May 4. He didn’t know it was wrong
to kidnap the two young girls because they were willing to go along with
everything he told them to do—he didn’t force anything.
In the end, the defense strategy did not persuade the jury, and it found
Petitioner guilty as charged. After receiving the jury’s verdicts, the Court
convened the penalty phase.
2.
In the penalty phase of Petitioner’s trial, the State contended that the
following aggravating circumstances warranted the jury’s imposition of three death
sentences. Petitioner should be sentenced to death because (1) he murdered L.S.
while engaged in the commission of kidnapping with bodily injury of A.F.; (2) he
kidnapped with bodily injury A.F. while committing the rape of A.F.; and (3) he
raped A.F. while committing the murder of L.S. 14 The State based its case for the
imposition of these sentences on the evidence adduced in the guilt phase and the
jury’s verdicts.

14

Presnell I, 243 S.E.2d at 500.

17

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 18 of 69

3.
Petitioner’s case for the imposition of concurrent life sentences consisted of
the testimony of four witnesses: Harry Porter, M.D., a psychiatrist; Miguel A.
Bosh, M.D., a psychiatrist; Rev. John T. Welch, a Baptist minister; and Lois
Cole, 15 Petitioner’s mother. Dr. Porter and Dr. Bosh had examined Petitioner
following his indictment. Both made the same mental health diagnosis—
pedophilia, a mental disorder—and testified that the disorder was curable. Dr.
Porter added that he did not believe that Petitioner intended to harm his victims
and characterized him as a very compliant individual who could function
satisfactorily in a controlled environment. Reverend Welch, the pastor of Glenn
Haven Baptist Church, had supervised Petitioner for a year at a mission for
juvenile delinquents.16 He testified that he had baptized Petitioner and described
him as “easily swayed.”
Lois spoke of her son’s troubled childhood. 17 Lois married Petitioner’s
father, Virgil Delano Presnell (“Delano”), in March of 1953. She was seventeen at
the time. She gave birth to Petitioner on December 29 of that year. She said that
Petitioner was raised without the benefit of fatherly guidance for most of his youth,

15

In 1976, Petitioner’s mother was named Lois Cole. In 1990, she married Willie
Samples and became Lois Samples. For ease on the reader, we refer to her as Lois throughout
this opinion.
16
See note 29, infra.
17
Lois was present in the courtroom throughout the trial.

18

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 19 of 69

and he had academic problems that caused him to fail “two or three different
grades.”
When Petitioner was about six months old, Lois, Delano and Petitioner
moved to Pontiac, Michigan. A few months later, Lois and Petitioner returned to
Atlanta and moved in with Lois’ parents. 18 Shortly thereafter, she and Delano
separated. Several years would pass before she saw him again. In the interim, she
and Petitioner stayed with her parents. Lois got a job with the Mead Packaging
Company, where she was still employed in 1976. When Petitioner was thirteen,
Delano returned to Atlanta to live with Lois and Petitioner. But the arrangement
did not last. In a year, they were divorced. She concluded her testimony by asking
the jury to spare her son’s life.
The parties’ closing arguments focused on the issue of mercy. The District
Attorney argued that Petitioner’s troubled childhood was irrelevant. Defense
counsel disagreed and pleaded for mercy throughout the argument.19 Counsel’s
pleas for mercy failed to convince the jury. Finding that the State had established
the aggravating circumstances required for the imposition of death sentences for

18

Lois’s parents were Harry Cleo Edwards and Eula Louise Rebecca Rumph. Lois had
six siblings. Mildred was the oldest. After Mildred came Lois, and after Lois came Sarah,
James, Patricia (called Peggy), Lillian, and Brenda. Lois’s siblings are referred to by their first
names throughout this opinion.
19
Counsel also alluded to the testimonies of Dr. Porter and Dr. Bosh, both of whom
opined that Petitioner’s pedophilia was curable.

19

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 20 of 69

the capital crimes Petitioner had committed, the jury rendered the verdicts the State
sought.
B. 20
On January 7, 1998, after Petitioner’s death sentence had been set aside in
Presnell III and the State opted to retry the penalty phase of his case, the Superior
Court of Cobb County appointed Stephen Schuster to represent Petitioner.
Schuster, who served as lead counsel, was admitted to the Georgia Bar in 1976.
Following Schuster’s admission to the bar, he worked as an assistant solicitor in
Cobb County for two years then moved to the Cobb County District Attorney’s
Office where he worked for two years as an assistant district attorney. After that,
he entered private practice, specializing in the representation of individuals
charged with criminal offenses. Before undertaking Petitioner’s representation,
Schuster had defended an accused in at least four cases in which the State sought a
death sentence.
At Schuster’s request, the Superior Court, on January 9, 1998, appointed
Mitch Durham to assist him as co-counsel. Durham was admitted to the Georgia
Bar in 1986. He began his legal career as a law clerk for the Superior Court of

20

The facts recited in this subpart are taken from the findings of fact made expressly or
impliedly by the Superior Court of Butts County in its December 27, 2005 order denying the
application for a writ of habeas corpus Petitioner filed on October 16, 2002. These findings of
fact are “presumed to be correct.” 28 U.S.C. § 2254(e)(1).

20

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 21 of 69

Cobb County. After his clerkship, Durham practiced with a criminal defense
attorney for eight years and then entered private practice as a criminal defense
attorney. Prior to his appointment in Petitioner’s case, he had defended an accused
in six murder trials in which the State sought a death sentence.
Defense Counsel obtained a wealth of information about Petitioner before
they started preparing for the retrial. They obtained the transcripts of the guilt and
penalty phases of Petitioner’s 1976 trial and the files maintained by the lawyers
who participated in that trial: J. Milton Grubbs, Jr., the lead defense counsel, and
George W. Darden, III, the prosecutor. 21 Defense Counsel had the records of the
habeas corpus proceedings held in the Superior Court of Butts County on the
petition Petitioner filed in 1980. These records included the mental health
evaluation of Petitioner made by Joel Norris, Ph.D., a psychologist, who testified
in those proceedings. In addition, Defense Counsel conferred with attorneys John
L. Taylor, Jr., and Millie Dunn, who obtained the vacation of Petitioner’s death
sentence in the federal habeas proceeding held in Presnell III. And from the time
they were appointed until the retrial, Defense Counsel conferred with Petitioner at
least ten times, in person at the Jackson County Correctional Institution, by phone,
and in writing.

21

See note 12, supra.

21

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 22 of 69

After Defense Counsel digested the information these sources provided, the
Superior Court, on September 11, 1998, granted their motion for funds to employ
Andrew Pennington, an investigator with death-penalty experience;22 Toni Bovee,
a mitigation specialist; 23 Robert D. Shaffer, Ph.D., a neuropsychologist; Patricia L.
Maykuth, Ph.D., a jury composition expert; 24 Harry Porter, M.D., the psychiatrist
who evaluated Petitioner following his indictment and testified in the penalty phase
of his 1976 trial; 25 and Dianna McDaniel, an attorney. 26 We refer to Defense
Counsel and these individuals collectively as the Defense Team.
Once assembled, the Defense Team set about the task of finding mitigating
evidence. They obtained photographs depicting Petitioner’s childhood; his school
records;27 his medical records, including those at Central State Hospital;28 and the
22

Pennington had been recommended by Pam Leonard, a mitigation specialist with the
Multi-County Public Defender’s Office. He had conducted investigations in numerous capital
cases in Georgia and California.
23
Bovee was recommended by the Multi-County Public Defender’s Office. She was a
licensed private investigator in California and South Carolina, had over sixteen years of
experience investigating mitigating evidence for defendants in capital cases, had worked in over
100 capital cases, and had attended thirty seminars focused on death-penalty mitigation.
24
Maykuth had been a consultant in over seventy civil and criminal trials on issues
including jury selection, jury profiling, perception, and memory.
25
The Multi-County Public Defender’s Office provided the funds needed to employ these
experts along with Attorney Dianna McDaniel.
26
Defense Counsel were assisted in the preparation of Petitioner’s defense by the MultiCounty Public Defender’s Office, which provided them with an index to motions in capital cases
and the names of experts in jury challenges and victim impact statements. Defense Counsel were
also assisted by the Georgia Resource Center.
27
The school records revealed, among other things, that Petitioner was a frequent truant
indifferent to academic work and his statements that his parents thought he was “stupid” and “no
good.”
28
Petitioner was at Central State Hospital from June 23, 1976 to July 1, 1976. He was
sent to the hospital under Superior Court order for the purpose of psychiatric examination and

22

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 23 of 69

records pertaining to his incarceration in jails and prisons following his arrest on
May 4, 1976. The Defense Team also delved into his criminal history and found
that he had been imprisoned for multiple convictions for vehicular theft.29
Defense Counsel and other members of the Defense Team conducted several
interviews. Pennington interviewed Petitioner; his former wife, Debra Gilliland; 30
his son, Brian Terry; his aunt, Peggy McQurter; his cousin, Marie Wilerson; and

evaluation. The hospital records, which were maintained during his incarceration, indicated that
Petitioner was of average intelligence, that the results of an electroencephalogram (EEG) were
normal, and that he had undergone a full psychological evaluation and was diagnosed with an
antisocial personality disorder and sexual deviation but was found to be functioning within the
normal range. The records also revealed that Petitioner showed no signs of guilt regarding his
assaults on L.S. and A.F. and that he admitted to intentionally drowning L.S. in the creek.
29
Petitioner was convicted in the Superior Court of Fulton County, Georgia, on
November 1, 1971, for a vehicular theft that occurred on June 20, 1971, and in the Superior
Court of DeKalb County, Georgia, on July 16, 1973, on four counts for vehicular thefts that
occurred on January 28 and March 14 (two thefts) and 27, 1973. For his November 1, 1971
conviction, he was sentenced to prison for five years. The sentence was suspended and he was
placed on probation after spending a year at the Georgia Christian Rehabilitation Center in
March 1972. For his July 16, 1973 convictions, he was sentenced to prison for three years. He
was released on parole on July 25, 1974. Defense Counsel also learned that Petitioner had been
incarcerated for breaking into a school and convicted for aiding in the delinquency of a minor—a
charge of sexual battery had been reduced to that offense.
In addition to these convictions, Defense Counsel were aware of Petitioner’s assaults on
young girls. Defense Counsel obtained the transcription of an interview conducted by Detective
Williams and Lieutenant Moss on May 6, 1976. In the interview Petitioner admitted that, as
early as age fourteen, he had grabbed young girls and reached under their dresses. Two months
before the assault on L.S. and A.F., he followed a young girl from school, seized her, took her to
a secluded spot, had her undress, and inserted his penis between her legs and simulated sex, but
did not penetrate her. A few days after that incident, he seized a young girl, took her to a
secluded spot, but ran off when it appeared that she was going to scream. Two weeks or so
before he assaulted L.S. and A.F., Petitioner followed a young girl, took her off her bike, forced
her to a wooded area and inserted his penis between her legs and simulated sex, again without
penetrating her.
30
Gilliland said that Petitioner had never tried to molest her or any family member and
that their divorce was his suggestion.

23

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 24 of 69

one of his former victims, A.H. Bovee interviewed Petitioner;31 Lois; and two of
his aunts, Lillian Shepard and Peggy McQurter. 32 Lois provided Bovee with a
family history. Among other things, she told Bovee that Petitioner never had a
positive male role model and was more comfortable with children. In discussing
her pregnancy with Petitioner, she said that she smoked a pack of cigarettes a day
and “did not drink except socially.” After receiving Pennington’s and Bovee’s
reports of these interviews, Schuster and/or Durham conferred with Lois, Gilliland,
Terry and Lillian.
Dr. Shaffer compiled Petitioner’s life history with the information provided
by the Defense Team and his interviews with Petitioner, Lois and Lillian.33 Dr.
Shaffer’s history reflected the following: Petitioner’s father, Delano, came from a

31

In her interview with Petitioner, Bovee learned of his educational background, family
life, criminal involvement, marriage, and employment history. He said that his uncle, James
Edwards, was the prominent male figure in his life and that his father punched him in the face,
beat him in the chest, and called him a sissy because he liked art and had no interest in sports.
32
Like Lois, Lillian provided Bovee with Petitioner’s life history, which included that
Petitioner once lived in a house where five women slept in the same room; Petitioner slept with
his mother until he was almost ten. Petitioner’s aunt, Peggy McQurter, confirmed what Bovee
heard from Lois and Lillian about the family living in close quarters.
33
Dr. Shaffer spent fifteen to twenty hours interviewing Petitioner and submitting him to
psychological and intelligence testing. His diagnosis was that Petitioner had a pedophilic
disorder and minimal brain dysfunction.
Dr. Porter also diagnosed Petitioner with pedophilia. Petitioner told Dr. Porter that he
went to a car race two days before he assaulted L.S. and A.F. and “got worked up seeing all the
good looking girls there”; that he went to their school the day before the assaults to watch the
girls with binoculars; and that he returned the following day, kidnapped L.S. and A.F. and
committed the crimes of which he had been convicted. He realized what he had done was wrong
and would be punished if caught. He “did not know why [he] held [L.S.] down in the water until
[he] thought she had quit breathing.”
Dr. Joel Norris agreed with Dr. Shaffer’s and Dr. Porter’s pedophilia diagnoses.

24

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 25 of 69

family of alcoholics. He was unfaithful to Petitioner’s mother and, when he was
around, he physically abused her and Petitioner. For most of his childhood,
Petitioner lived with several adult women, where sexual boundaries were
ambiguous and privacy was scarce. His mother’s primary role was to make money
rather than to raise Petitioner; Petitioner’s grandmother and Aunt Lillian did the
child rearing. He had no male role models.
The Defense Team’s investigation did not reveal that Petitioner suffered
from FASD. Thus, the disorder did not play a role in Defense Counsel’s trial
strategy. The strategy they chose was to create a lingering doubt in the jurors’
minds as to whether L.S.’s killing was accidental, or was deliberate as the State
contended, and to prompt the jurors to return a life-sentence verdict. As a fallback
position, they urged the jury to return a life-sentence verdict as a matter of mercy. 34
C.
The penalty-phase retrial took place from February 22 to March 16, 1999.
District Attorney Patrick Head and Assistant District Attorneys Russell Parker and

34

Mercy was the focus of the sentencing phase of Petitioner’s 1976 trial. Presnell III,
959 F.2d at 1530. Indeed, the parties’ “closing arguments . . . revolve[d] around the mercy
issue.” Id. We vacated Petitioner’s death sentence because the State, drawing on comments a
Justice of the Georgia Supreme Court made in Eberhart v. State, 47 Ga. 598 (1873)—comments
this Court has condemned on several occasions—told the jury that it “must exclude any
consideration of mercy from its sentencing decision [and] therefore in effect deprived petitioner
of his only remaining plea for life,” Presnell III, 959 F.2d at 1530, and denied him due process of
law. Presnell III thus informed Defense Counsel that appealing to the jury’s sense of mercy was
a viable sentencing strategy.

25

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 26 of 69

Jack Mallard represented the State. Defense Counsel, assisted by Dianna
McDaniel, represented Petitioner. The State called sixteen witnesses in its case in
chief and three on rebuttal. Petitioner called six witnesses, including Lois.
1.
Parker made the State’s opening statement to the jury. He began by
explaining what happened on May 4, 1976. He described how A.F. was able to
escape and help the police find Petitioner, who subsequently confessed and led the
police to L.S.’s body. After that, he previewed the testimony of the Medical
Examiner, Dr. Joseph Burton. Dr. Burton would say that L.S. drowned; that she
had water and sand in her stomach; that her bronchial tubes leading to her lungs
had plant matter in them; that she had superficial abrasions in her eyelid, the tip of
her nose, lower lip, and chin; that she had marks around her throat, inner left
forearm, and right forearm; and that she had bruising over her back.
Parker concluded by saying that the jury should return a death-sentence
verdict because the evidence on which Petitioner’s conviction for the murder of

26

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 27 of 69

L.S. was based established the following aggravating circumstances: (1)
kidnapping with bodily injury,35 (2) torture, 36 and (3) depravity of the mind. 37
Schuster delivered the opening statement for Petitioner. He began by telling
the jury that, after assaulting A.F. and L.S., Petitioner made no attempt to flee. He
let A.F. go, knowing that she would be able to identify him and his car. Then,
following his arrest, he told the police what he had done and helped them find
L.S.’s body. Schuster focused on Petitioner’s upbringing. His parents separated
when he was a year old, and his mother moved in with her parents—Petitioner’s
grandparents—and her six siblings (five sisters and a brother). The family was
dependent on welfare, living in housing projects and in cramped quarters. Sexual
abuse was rampant, perpetrated by Petitioner’s maternal uncle, James. When
Petitioner was thirteen, his father returned and moved in with him and his mother.
His father drank to excess and was physically abusive. He beat and belittled

35

O.C.G.A. § 17-10-30(b)(2). This subsection authorizes a jury to return a deathsentence verdict if the murder at issue was committed “while the offender was engaged in the
commission of another capital felony,” such as the offense of kidnapping with bodily injury.
Although a death sentence could no longer be imposed for the offense of kidnapping with bodily
injury, the Georgia Supreme Court classifies it as a capital offense when introduced as an
aggravating circumstance for murder. Cook v. State, 251 S.E.2d 230, 230 (Ga. 1978).
36
O.C.G.A. § 17-10-30(b)(7). This subsection authorizes a jury to return a deathsentence verdict if the murder at issue was “outrageously or wantonly vile, horrible, or inhuman
in that it involved torture, depravity of mind, or an aggravated battery to the victim.” Id. The
Georgia Supreme Court construes this subsection as disjunctive, creating three aggravating
circumstances: an outrageously or wantonly vile, horrible, or inhuman murder that involved (1)
torture, (2) depravity of the mind, or (3) an aggravated battery. Ellington v. State, 735 S.E.2d
736, 146 (Ga. 2012) (citing Hance v. State, 268 S.E.2d 339, 345 (Ga. 1980)).
37
O.C.G.A. § 17-10-30(b)(7); see note 36, supra.

27

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 28 of 69

Petitioner for no apparent reason. As a result, Schuster argued, Petitioner hardly
knew right from wrong. Schuster closed his remarks by saying that, in the years
following 1976, Petitioner had become a productive member of his prison
population. He obeyed the rules and even earned a GED.
2.
The State called sixteen witnesses in its case in chief. Together, they
presented a case essentially identical to the case the State presented in 1976. A.F.,
then an adult woman, described how Petitioner abducted her, raped her, and then
left her in the woods near a service station. On cross-examination, A.F. testified
that she did not see Petitioner do anything to L.S. except tie her up and tape her
mouth shut when he abducted her and L.S. and forced them into his car.
L.S.’s parents and A.F.’s mother testified. L.S. and A.F. were neighbors and
good friends. L.S.’s father recalled that they often walked home from school
together. In the evening of May 4, 1976, he identified his daughter’s body at the
hospital. L.S.’s mother said she was at home that day. When the girls did not
come home from school on time, she looked for them and found A.F.’s books in
the woods, which prompted her to call the school and the police. L.S.’s parents,
her sister, and a cousin read victim impact statements to the jury.
A.F.’s mother met her daughter at the service station where A.F. went after
running away from Petitioner. An ambulance was called, and A.F.’s mother
28

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 29 of 69

accompanied A.F. to the hospital. She waited there while A.F. underwent surgery
to repair vaginal lacerations.
Vincent Giglio, a neighbor of L.S.’s and A.F.’s families, testified. He
participated in a search for the girls. He found Petitioner’s sleeping bag and rope
in the woods.
Lee Moss, a lieutenant with the Cobb County Police Department in May
1976, testified. He and Detective Douglas Williams were the officers in charge of
the case. He and Detective Williams met with A.F. at the hospital. She explained
what had happened and where Petitioner had left her. With that information,
Lieutenant Moss and Detective Williams were able to find Petitioner. Once they
found him, Petitioner took the officers to L.S.’s body. The officers then placed
Petitioner under arrest and brought him to the stationhouse where he gave a
recorded confession, which was later transcribed. Moss read the entire confession
into the record. 38 On cross-examination, he said that Petitioner confessed after
waiving his rights to remain silent and have counsel present. 39

38

Among other things, Petitioner confessed that he raped A.F. and then told the girls to
get dressed. At that point, L.S. took off running. Petitioner chased her toward a creek. He said,
“I didn’t really know why, but I just pushed her down into the creek and held her there. Well,
she was kicking and trying to get out but I just held her there until she stopped kicking. Well, I
figured she was dead and for some reason I didn’t want to leave her in the creek, and that is the
reason I carried her out of the creek and layed [sic] her down.”
39
Detective Williams testified at Petitioner’s 1976 trial. By 1999, he had left the Cobb
County Sheriff’s Office and no longer lived in Georgia.

29

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 30 of 69

Morris Toler, a Cobb County detective in 1976, testified that on May 6 he
searched the area around the scene of the crime for additional evidence. He found
clothing, books, shoes, and a lunch box behind the Chattahoochee Elementary
School. 40 He searched Petitioner’s car, which was parked at Lois’ apartment
complex, and recovered Petitioner’s binoculars. He searched Lois’ apartment and
found three pornographic books and a firearm in the headboard in Petitioner’s
bedroom. On cross-examination, Detective Toler conceded that a May 7 report
that he drafted indicated that he had found the firearm in Lois’ headboard, not
Petitioner’s. While acknowledging the incongruity, Detective Toler insisted that
he had found the firearm in Petitioner’s headboard.
The State called two physicians. Dr. William Layne, who performed A.F.’s
surgery on May 4, and Dr. Joseph Burton, who conducted L.S.’s autopsy. Dr.
Layne opined that A.F.’s lacerations were caused when “something . . . rapidly
expand[ed] the vagina.” He testified that lacerations like the ones suffered by A.F.
“sometimes [happen] when a baby’s head is coming through the vagina and it’s too
big for the vagina. It will tear the same type of laceration.” Dr. Layne opined that
“[s]omething had been in [A.F.’s vagina] and caused it to expand and tear.” On

40

A.F. and L.S. were not students at the Chattahoochee Elementary School; they attended
the Richard B. Russell Elementary School. See note 13, supra. Detective Toler explained that
he was searching for evidence near the Chattahoochee Elementary School because it was located
near the service station that A.F. had run to after escaping Petitioner.

30

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 31 of 69

cross-examination, he conceded that he could not determine what had been
inserted into A.F.’s vagina to cause the lacerations.
Dr. Burton opined that L.S.’s body indicated that she died during daylight
hours, that she likely did not fall, that she inhaled water mixed with plant and sand
material, and that her pelvis was under water. He noted that L.S. was wearing
jeans that “were unzipped and unsnapped in front” and she was wearing “no
underpants.” He said that bruising on her neck was consistent with someone
applying pressure on the neck area. He concluded that L.S. died by drowning after
putting up significant resistance. In Dr. Burton’s opinion, the forensic evidence
was consistent with what Petitioner described in his confession (i.e., that he
intentionally held L.S.’s head under water).
On cross-examination, Dr. Burton agreed that the forensic evidence could be
consistent with Petitioner’s theory that he did not intend to kill L.S. by holding her
head under water. Dr. Burton added, however, that he would expect more
abrasions on L.S.’s face had she had been running and simply fallen. Further, he
would expect to find that L.S. had suffered one or more broken ribs had Petitioner
fallen on top of her.
The State called two witnesses who had encountered Petitioner prior to
May 4, 1976: Linda Brawner, whose children went to school with L.S. and A.F.,
and A.H., whom Petitioner assaulted on April 23, 1976. Brawner testified that she
31

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 32 of 69

saw Petitioner near her children’s school on May 3. He was watching the children
from his parked car. She saw him again on May 4, standing in a yard across the
street from the school.
A.H. attended B.C. Haynie Elementary in Clayton County. In 1976, she was
ten years old. On April 23, 1976, she was walking home from school when
Petitioner grabbed her, slapped her, and threatened her with a knife. A.H. escaped
his grasp and ran. Petitioner took off in the opposite direction. This was not the
first time she saw Petitioner. A couple of days before, A.H. saw Petitioner
standing near the spot where he would later grab her.
A.H. reported the encounter to the Clayton County Sheriff’s Office.
Detective John Robbins, who conducted a photo lineup with A.H., testified that she
identified Petitioner as her attacker. The State published a Superior Court of
Clayton County judgment establishing that on October 18, 1976, Petitioner pled
guilty to a charge of aggravated assault with intent to rape A.H. and was sentenced
to ten year’s imprisonment.
Greg Ballard, senior counselor at the Georgia Diagnostic Prison, testified
last for the State. He was Petitioner’s counselor between 1995 and 1997. He
testified that in 1996, Petitioner complained because the mailroom staff rejected a

32

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 33 of 69

book he had ordered, Radiant Identities.41 After the book was rejected, Petitioner
asked to see the standard operating procedures regarding “printed materials that
may or may not contain sexual, nonsexual photos, magazines, books with nudity of
adults or children, the issue being natural photos of children that are not sexual or
provocative.” On cross-examination, Ballard said that Petitioner was a low-profile
prisoner who stayed out of trouble. He also agreed that the prison’s safety
standards precluded children from entering the area where Petitioner was housed,
implying that Petitioner would pose no future risk to children if given a life
sentence.
During the presentation of its case in chief, the State introduced into
evidence several photographs, including photographs of the crime scene, L.S.’s
body, Petitioner’s car, and his pornographic books. Also received in evidence
were the rug Petitioner forced A.F. to lie on, maps of the area where the crimes
were committed, certified copies of Petitioner’s convictions for vehicular theft in
the Superior Courts of Fulton County and DeKalb County, and a certified copy of
his conviction in the Superior Court of Marion County for contributing to the

41

Ballard testified that he had never seen a copy of Radiant Identities. Excerpts of the
book submitted into evidence by the State show that it is a photography book containing images
of children. A young girl is prominently pictured on the cover, a copy of which was submitted
into evidence. Wearing only pants, the girl’s body is exposed from the waist up. Another page
of the book, which was submitted into evidence, contains an image of three children on a beach.
Two are fully wrapped in beach towels. The third child, a young girl, is also wrapped in a beach
towel, but she is holding her towel open and, clothed in a one-piece swimsuit, her body is
exposed.

33

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 34 of 69

delinquency of a minor. Finally, in conjunction with Ballard’s testimony, the State
introduced the forms Petitioner used to order books, the form rejecting Radiant
Identities, and the request he made for the standard operating procedures after the
prison rejected Radiant Identities.
3.
In Petitioner’s defense, Defense Counsel called six witnesses: Dulcie
Shrider, Lillian Shepard, Lois and Willie Samples (Petitioner’s stepfather),42 Brian
Terry (Petitioner’s son), and Robert D. Shaffer, Ph.D.
Dulcie Shrider, the District Records Manager for the Atlanta Public School
System, testified first. Pursuant to a subpoena, she produced Petitioner’s school
records and summarized what they disclosed. Petitioner attended at least five
different schools, resided at several different addresses, and struggled to advance
from one grade to the next, often spending multiple academic years in the same
grade. Petitioner’s intelligence test scores disclosed a verbal IQ score of seventyfour, a performance IQ score of ninety-six, and a full-scale IQ score of eightythree.
Lillian, Petitioner’s aunt, testified next. She said that she is seven years
older than Petitioner. She said that when Lois gave birth to Petitioner (on
December 29, 1953), she and Lois were living with their parents and four of their

42

See note 15, supra.

34

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 35 of 69

five siblings—Sarah, James, Peggy, and Brenda—in a duplex “out in west end on
Norcross Street.”43 Lois’s husband, Delano, was in the Army, stationed in Japan.
His tour there was short. When he returned to Atlanta from Japan, Petitioner was
about six months old. Within a few days, he decided to take Lois and Petitioner to
Michigan. Before the year was out, he and Lois separated, and she and Petitioner
returned to Atlanta and moved in with Lois’s parents. Lois’s parents had a threeroom apartment in Bankhead. Also living in the apartment were Sarah, Peggy,
James, Brenda, and Lillian. Shortly after arriving in Atlanta, Lois got a job with a
paper plant.
When Petitioner was two, Lois’s parents, her siblings (except Mildred) and
Petitioner moved to an apartment in another public housing complex in Atlanta.
Lois could not move in with them because under the public housing rules, two
families could not reside in the same apartment. So, Lois lived elsewhere, leaving
Petitioner with her parents. She saw him on weekends.
Two years later, her parents and her siblings moved to a three-bedroom
house, and Lois joined them. They stayed there for a year, then moved to an
apartment in a public housing complex. Lois moved to an apartment near the
paper plant, leaving Petitioner with her parents. Soon thereafter, the family was

43

Mildred, the oldest sibling, was living elsewhere at the time.

35

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 36 of 69

evicted from their apartment and Petitioner went to live with Lois. He was seven
years old.
In roughly 1954, James was in a serious car accident. After that, Lillian
recalled, he became violent, and for five years he sexually assaulted her and her
sisters. According to Lillian, James and Petitioner “palled around” while they
were living in the same home.
Lillian described her father as immature and dependent on her mother.
When asked who parented Petitioner, Lillian said she did. She took care of him.
Neither her father nor her mother was involved. 44
Willie Samples (“Willie”) and Brian Terry followed Lillian to the stand.
Willie testified that he had known Lois since 1956; he married her in 1990. Since
their marriage, Willie explained, he began going with Lois to visit Petitioner
monthly. Terry said that he visited and wrote to Petitioner as frequently as he
could. Both Willie and Terry told the jury that they valued having Petitioner in
their lives.
Lois was the last lay witness to testify. Her testimony, as it related to
Petitioner’s upbringing, echoed much of what Lillian had said.

44

Lillian reported that her sister Brenda died in 1984 and that her sister Sarah died in

1996.

36

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 37 of 69

Lois was born on January 26, 1936, the second of her parents’ seven
children. She dropped out of school at sixteen with an eighth-grade education. In
March 1953, she married Delano, who was in the Army. Petitioner was born on
December 29, 1953, while Delano was stationed in Japan. At the time, Lois was
living with her parents and four siblings in a three-room apartment.45 Shortly after
Delano returned from Japan, she moved with him to Michigan, taking Petitioner
with them. Less than three months later, she left Delano because he was seeing a
woman in Michigan. Taking Petitioner with her, Lois returned to Atlanta and to
her parents’ apartment. In time, she got a job at a paper factory46 and rented a
room a block from the plant.
Before he was a year old, Petitioner rolled off the bed and hit his head on the
floor.47 Lois testified that because of the fall, her mother deemed Lois unfit for
parenthood and took over, leaving Lois to work and raise money. She said that her
father was not a father figure to Petitioner. James and Delano were the only other
males in Petitioner’s life.

45

Lois testified that she and Petitioner shared a bed with Sarah. She also testified that
she slept in the same bed as Petitioner until he was eight or nine years old.
46
Lois worked ten and a half hours a day at the paper factory. She stayed employed there
for almost forty-three years. At the time she was hired, the paper factory was called Atlanta
Paper Company. When she testified in 1999, it was called Mead Inc.
47
Lois told Bovee that Petitioner’s fall happened when he was six weeks old. See part
IV.A, supra.

37

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 38 of 69

Delano eventually came back into Lois’s life; when Petitioner was thirteen,
Lois and Delano remarried. Delano drank in excess and abused Lois and Petitioner
repeatedly. Delano thought Petitioner was a sissy and would call him foul names.
The remarriage failed and Delano departed.
Lois described Petitioner’s school attendance and performance as poor. He
dropped out of high school and soon was arrested for joy riding in a stolen car.
Stealing cars, and consequent arrests, became habitual.
On cross-examination, Lois testified that her family had family reunions
when Petitioner was very young. He attended them and seemed to enjoy himself.
Dr. Robert Daniel Shaffer testified last. He testified that in preparing to
conduct a psychological evaluation of Petitioner, he compiled a summary of
Petitioner’s life history. In preparing the life history, he reviewed Petitioner’s
medical and education records and the data contained in the psychological tests he
performed at the Jackson County Correctional Institution. He met with Petitioner
at the Institution on three occasions for a total of fifteen to twenty hours.
Petitioner’s life history reflected the information Dr. Shaffer obtained from the
investigators’ reports and in interviewing Petitioner, his mother, and Lillian.
Dr. Shaffer presented Petitioner’s life history in the context of four findings.
First, Petitioner displayed signs of chronic brain syndrome or minimal brain
dysfunction. Dr. Shaffer reached this diagnosis based on Petitioner’s school
38

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 39 of 69

records. The elementary school records revealed that Petitioner repeated some
grades more than once. Teachers suggested that he be placed in special classes for
“mentally retarded” students. They also noticed a delay in his social and emotional
development as opposed to an intelligence problem. He stayed in elementary
school until he was fifteen.
Second, during his childhood, Petitioner lacked privacy and was exposed to
confusing sexual boundaries. Most of the time he was living in close quarters with
several family members where sexual misconduct took place and people spoke
about sex freely. His uncle James molested at least three of James’ sisters. Dr.
Shaffer explained that James’ later conviction for having sex with his two
daughters and forcing his son to have sex with his son’s own mother indicated the
“gravity and severity of the disorder that was present in” James. Dr. Shaffer said
that a possible explanation for Petitioner’s aberrant behavior might be that it was
caused by genetic factors—the same factors present in James’ makeup.
The elementary school records indicated that teachers were concerned with
Petitioner’s knowledge and openness about sex. Petitioner told Dr. Shaffer that he
had a confusing relationship with Lillian, who would often act like his mother.
When his real mother would go to a dance and bring him and Lillian along, Lillian
would act like his romantic partner.

39

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 40 of 69

Third, Petitioner’s only male role models were either abusive or sexually
deviant. James was molesting his sisters. Petitioner’s father was the son of an
alcoholic, habitually drank to excess, and physically and verbally abused Petitioner
and his mother. Consequently, Petitioner learned that the only way to become a
man was to assault his loved ones or commit sexually deviant acts.
Fourth, Petitioner was exposed to sexual and romantic fantasies while
growing up. His maternal grandfather apparently kept pornographic material in the
bathroom and expected Petitioner to view it. In time, Petitioner obtained from an
adult bookstore pornographic books depicting adult men with young girls.
Dr. Shaffer also testified about the results of three psychological tests and
two personality tests. The first psychological test, the Halstead-Reitan
neuropsychological test, assessed whether Petitioner had sustained any significant
brain injuries. Dr. Shaffer asked him to perform four tasks. He scored in the
normal range on two. On the third task, his performance indicated that he had
difficulty with comprehension and suffered from moderately severe brain
impairment. On the fourth, Petitioner’s score was consistent with mild brain
impairment.
The second psychological test was the Wechsler Adult Intelligence Scale III
test for intelligence. Petitioner’s scores were in the borderline-to-low-average
range of intellectual functioning but showed a significant discrepancy between
40

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 41 of 69

verbal processing and perceptual organization, which could mean brain
dysfunction, hereditary factors, or some developmental issue.
The third psychological test, the Vineland Adaptive Behavior Scales test,
determined Petitioner’s ability to complete standard daily routines. His scores
were equal to an average nine-year-old for communication, daily living, and
socialization.
The two personality tests, the Dissociative Experiences Survey and the
Rorschach Inkblot test, determine a person’s awareness of reality. They revealed
that Petitioner struggled with reality perception.
Considering Petitioner’s life history and test results, Dr. Shaffer diagnosed
Petitioner as having a pedophilic disorder. He also concluded that Petitioner
suffered from minimal brain dysfunction, meaning that he had a developing
nervous system that made him vulnerable to the environment in which he grew
up—a deviant, hostile environment with blurred sexual boundaries.
On cross-examination, Dr. Shaffer described Petitioner’s demeanor as
immature and socially naive, albeit articulate. He agreed that Petitioner was not
mentally retarded or below average intellectual functioning. Finally, Dr. Shaffer
acknowledged that Radiant Identities was the type of book a pedophile would be
attracted to.

41

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 42 of 69

During the presentation of Petitioner’s defense, the Court had admitted into
evidence a note Petitioner submitted requesting that his stepfather, Willie Samples,
be added to his visitation list; multiple pictures of things he cross-stitched in
prison; his marriage certificate; photographs of him as a child; court records related
to James’ child-molestation conviction; letters between Petitioner and his son,
Brian Terry; and an article showing that Cobb County District Attorney Patrick
Head opted not to block Radiant Identities from being sold at local bookstores.
The Court also admitted several documents from Petitioner’s school records,
including his IQ test scores, report cards, letters sent home regarding discipline, a
letter from the health department to a social worker recommending that he take
special classes for the mentally retarded, and a psychological evaluation conducted
while he was in eighth grade. Among other things, the evaluation indicated that
Petitioner was functioning at the upper limits of the mentally defective level of
intelligence and performing several years below his grade level academically.
The State, in rebuttal, called three witnesses. The first was Chuck Owen, the
lead senior counselor at the Jackson County Correctional Institution where
Petitioner was incarcerated from 1986 to 1990. Owen testified that he saw
Petitioner frequently and described him as an articulate, personable, and normal
adult. He recalled the scores Petitioner made on the Ebert test, a psychometric test
that was routinely administered to Jackson inmates at the time. The Ebert test
42

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 43 of 69

measured IQ and behavioral patterns. Petitioner’s scores were in the high range of
normal. And Petitioner was able to earn a GED.
On cross-examination, Owen acknowledged that, while incarcerated,
Petitioner tested at an eighth-grade reading level, a fourth-grade math level, and a
sixth-grade writing level.
Robert Storms, Ph.D., a psychologist, followed Owen to the stand. Dr.
Storms had evaluated Petitioner pursuant to a court order issued for the purpose of
determining whether he was competent to stand the retrial of the penalty phase,
whether he suffered from a mental illness, or whether he was “mentally retarded.”
He visited Petitioner in prison and reviewed documents related to his childhood,
the police case file, and Dr. Shaffer’s report. He noted that Petitioner had a
troubled childhood and described him as coherent and rational.
Dr. Storms administered two tests: the MMPI-2 test and the Wechsler Adult
Intelligence Scale III test. The MMPI-2 tested Petitioner’s reality contact.
Petitioner’s score was perfect. The Wechsler test is an IQ test. Petitioner’s verbal
IQ score was seventy-eight and his performance IQ score was 109. According to
Dr. Storms, an average on the test is anything from ninety to 100, and the seventyeight to 109 disparity in verbal IQ and performance IQ signified an abnormality.
He concluded that Petitioner suffered from Attention Deficit Disorder (“ADD”),
which would have made it difficult for Petitioner to concentrate as a child.
43

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 44 of 69

Petitioner’s school records were consistent with ADD, which, Dr. Storms
explained, may have caused Petitioner to have a rich fantasy life.
Dr. Storms found nothing strange about Petitioner’s speech, gait, or thought
process. He found no evidence that Petitioner suffered any neurological damage
from having fallen and hit his head as a child. He concluded that Petitioner was
not psychotic, did not meet the threshold for “mental retardation,” and was
competent to stand trial.
On cross-examination, Dr. Storms said that he did not administer any tests
relating to pedophilia or sexual deviance but agreed with Dr. Shaffer’s diagnosis of
pedophilic disorder.
Alisa Smith, M.D., a forensic psychiatrist, was the State’s final rebuttal
witness. Like Dr. Storms, she had evaluated Petitioner’s competence to stand trial,
mental illness, and “mental retardation” pursuant to a court order. She interviewed
Petitioner for two hours. She prepared for the interview by reviewing records from
the 1976 jury trial, Petitioner’s school records, and Dr. Shaffer’s report.
Petitioner presented no physical appearances outside the norm, was
cooperative and non-threatening. Petitioner described an unexceptional childhood,
although he performed poorly in school. Petitioner told Dr. Smith that he had
many fond memories of his childhood, especially family get-togethers. He said
that, in school, he got in trouble on purpose. He dropped out because
44

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 45 of 69

administrators told him he either had to stop cutting class or drop out. He
struggled to hold a job and was arrested on multiple occasions for joy riding in
stolen cars. Dr. Smith concluded that Petitioner’s behavior was indicative of a
conduct disorder.
The mental status exam showed that Petitioner’s brain was functioning
normally and that he had average intelligence. He evidenced no difficulty with
reality, so Dr. Smith concluded that he was competent to stand trial. Her diagnosis
was that Petitioner exhibited antisocial borderline personality traits, a personality
disorder, which helped explain why he broke the rules and frequently made
impulsive decisions as a child and young adult.
4.
With the evidence closed, the parties delivered their closing arguments to the
jury. Parker spoke first for the State. He summarized the State’s theory: Petitioner
killed L.S. because she did not cooperate. He said that Petitioner’s defense—that
he was the product of bad genes and a bad environment—was not persuasive. The
bad genes theory failed because Dr. Shaffer was not an expert in genetics. The bad
environment theory failed because Petitioner had not endured any exceptional
hardships, and everyone must endure some hardships in life. Parker dismissed the
argument that Petitioner was only capable of functioning like a child by pointing to
his sophistication in planning and carrying out the May 4, 1976 assaults. Petitioner
45

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 46 of 69

selected the elementary school, the victims, and wooded area where the assaults
would take place; he stalked the victims; and he brought the items he needed to
accomplish his objective. All of that, Parker said, showed that Petitioner was not
functioning like a child when he committed the crimes.
Parker reminded the jury that it could not consider capital punishment unless
it found an aggravating circumstance. He argued that the State proved three: (1)
kidnapping with bodily injury, (2) torture, and (3) depravity of the mind. In short,
Petitioner committed kidnapping with bodily injury when he sodomized A.F.,
torture when he killed L.S., and acted with depravity of the mind in forcing L.S. to
watch him rape A.F. Last, he said that Petitioner’s attempt to have Radiant
Identities delivered to him while incarcerated showed that he had not changed; he
was still a pedophile.
Head spoke next for the State. He called Petitioner a deceiver and argued
that Petitioner tried to deceive others about L.S.’s death. The State’s theory, he
explained, was that L.S. did not die by accident. The marks on her body were the
result of Petitioner’s blows. L.S.’s zipper was undone and her pants were
unbuttoned because Petitioner attempted to sexually assault her; she resisted, so
Petitioner killed her.
Durham and Schuster delivered Petitioner’s response. Their goal was to
convince at least one juror to vote against a death sentence. Durham asked the
46

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 47 of 69

jurors to consider whether L.S.’s death was accidental and thus not susceptible to
the death penalty. He drew their attention to Dr. Burton’s testimony. Dr. Burton
said that L.S.’s body showed no signs of sexual trauma. And the forensic
evidence, taken as a whole, was consistent with an accidental drowning.
Durham addressed the State’s burden to prove at least one of the three
aggravating circumstances. He suggested that reasonable doubt existed as to the
first aggravating circumstance, that Petitioner committed L.S.’s murder during the
commission of kidnapping with bodily injury of A.F. Durham explained that the
jury needed to decide whether the State proved, beyond a reasonable doubt, that
A.F. suffered bodily injury as result of Petitioner’s oral sodomy of A.F., and the
jury could not consider bodily injury that resulted from Petitioner’s rape of A.F.
Durham also suggested that a reasonable doubt existed as to the second and
third aggravating circumstances, torture and depravity of mind. Urging against a
finding of torture, Durham noted that L.S. put up a struggle and drowned in a
relatively deep puddle of water, which would have sped up her drowning; that Dr.
Burton’s testimony showed that the forensic evidence was consistent with
Petitioner’s recitation of an accidental drowning; and that L.S. showed no signs of
sexual trauma. Arguing against a finding of a depraved mind, Durham cited Dr.
Smith’s testimony that Petitioner suffered from a personality disorder that caused
him to act impulsively, meaning L.S.’s drowning may have been an impulsive act
47

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 48 of 69

that Petitioner committed because things spun out of his control when L.S. ran
away from him in the woods.
Schuster emphasized that Petitioner was diagnosed with pedophilia, a mental
disorder, and that the disorder may have been caused by his genes. He pointed to
James’ sexual deviancy, said that it was in his genes, and argued that Petitioner
may have inherited some of the same genes. Or his pedophilic disorder may have
been the result of his environment—in particular, his exposure to James’ sexual
deviancy throughout his youth and his father’s drunken rages. All of this
explained Petitioner’s behavior on May 4, 1976.
Schuster concluded his argument with a plea for mercy—on behalf of Lois
and the other members of Petitioner’s family.
5.
The Court charged the jury, including instructions on the three aggravating
circumstances the State referred to in its opening statement, as well as mitigating
circumstances. It instructed the jury that if the State established one of the
aggravating circumstances beyond a reasonable doubt, it could return a deathsentence verdict after taking into account any mitigating circumstances the
evidence disclosed. Absent an aggravating circumstance, its verdict would be life

48

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 49 of 69

imprisonment. 48 The Court also instructed the jury that, whether or not it found
that the State proved one or more aggravating circumstances beyond a reasonable
doubt, it would still be authorized to impose a life-sentence verdict instead of a
death-sentence verdict.
The jury sent the Court four written questions during its deliberation. The
jury asked the Court (1) to define aggravated sodomy, (2) to define bodily injury,
(3) where it could find Petitioner’s 1976 confession, and (4) whether parole would
be an option for Petitioner if the jury imposed a life sentence.
At the conclusion of its deliberation, the jury found all three statutory
aggravating circumstances beyond a reasonable doubt and returned a deathsentence verdict.
IV.
A.
After the Georgia Supreme Court affirmed his death sentence, Presnell v.
State, 551 S.E.2d 723 (Ga. 2001), and the United States Supreme Court denied
certiorari review, Presnell v. Georgia, 535 U.S. 1059, 122 S. Ct. 1921 (2002),
Petitioner, on October 16, 2002, sought a writ of habeas corpus in the Superior

48

Georgia’s capital sentencing model does not require the jury to weigh the aggravating
and mitigating circumstances in reaching its verdict whether to impose the death sentence or life
imprisonment. Zant v. Stephens, 462 U.S. 862, 873–74, 103 S. Ct. 2733, 2741 (1983) (“In
Georgia, unlike some other States, the jury is not instructed to give any special weight to any
aggravating circumstance, to consider multiple aggravating circumstances any more significant
than a single such circumstance, or to balance aggravating against mitigating circumstances
pursuant to any special standard.” (footnote omitted)).

49

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 50 of 69

Court of Butts County. His petition presented forty-three claims for relief from his
convictions and death sentence. One claim attacked the sentence on the ground
that Defense Counsel’s preparation for and presentation of his defense at the retrial
failed to comply with the Strickland v. Washington performance standard in
several ways. One was the FASD claim: Defense Counsel were deficient in failing
to discover that Petitioner suffers from FASD. Petitioner presented the claim not
in his petition but in a post-hearing brief. Petitioner has since framed his FASD
claim thus:
[Defense Counsel] provided ineffective assistance by conducting a
deficient investigation that failed to reveal the readily-available
evidence of [Petitioner’s] Fetal Alcohol Spectrum Disorder (“FASD”)
– which, as his well-qualified experts testified, is a devastating
condition that causes profound organic brain damage and cognitive
deficits that manifest in impaired decision-making, compromised
mental functioning (sometimes to the degree of intellectual disability),
and enhanced risk for developing problematic and deviant behaviors.
....
[Petitioner]’s FASD left him with severe physiological and
psychological disabilities, permanently arresting the development of
his mind, judgment, impulse control, and emotions at the equivalent of
that of a child under the age of ten. These disabilities were exacerbated
by his childhood exposures to poverty, physical abuse, sexual violation,
and severe mental illness – a toxic combination of nature and nurture
that caused him to develop the paraphilia that produced such tragic
results in this case.
Defense Counsel failed to discover that Petitioner suffered from FASD
because they
missed the fact that his mother drank to excess while she was pregnant
with him, causing [FASD], resulting in profound organic brain damage
50

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 51 of 69

and cognitive deficits. . . . [H]ad trial counsel learned about Petitioner’s
FASD and presented that to the jury, he would not have received the
death penalty.
(quotation marks omitted).
Petitioner’s support for this allegation consisted of an affidavit his mother
executed on March 9, 2004 (“Affidavit”). The Affidavit was one of twenty-one
affidavits Petitioner’s habeas counsel presented to the Superior Court at the hearing
it held on June 2, 2004. 49 The Affidavit contains forty-two numbered paragraphs.
Five paragraphs refer to Lois’ alcohol consumption:
14: [Delano and I dated for about 6 months and then we were] married
in March of 1953 in Dallas, GA by a Justice of the Peace. . . . Delano
drank when we dated but I never grew up around drinking so I did not
know what it could do to you.
....
16: I got pregnant . . . . In the evenings I would wait for Delano to come
home but he was always out with his buddies drinking and meeting
women. I would just have to sit at home, while I was pregnant, and so
I would have a few drinks by myself wondering whom my husband was
with. I think sometimes I drank during this period just cause I was mad
at Delano. . . .
17: On some nights when Delano and I were at home we would have a
few drinks together too. Bourbon was my drink of choice. Although I
did not drink the way Delano did, I was drinking during the entire time
I was pregnant with Virgil.
49

In addition to the twenty-one affidavits, habeas counsel presented four investigative
reports (including those of his experts on FASD, David Lisak, Ph.D., and Ricardo Weinstein,
Ph.D.), and the trial court record and the District Attorney’s file relating to the prosecution of
Presnell v. State, Case No. 9-76-0603-28. One of the affiants, Petitioner, testified at the 1976
trial. Two testified at the 1999 retrial, Lois and Lillian.

51

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 52 of 69

18: One time while I was still pregnant Delano was out and I was real
mad so I asked the neighbor to buy me a pint of bourbon. I drank the
whole pint of bourbon and then the neighbor bought me another pint of
bourbon. Delano came home and he was upset that I had been drinking
and he started to jump on me. He was trying to get the bourbon bottle
from me. I would not give him the bottle and I eventually threw the
bottle in the middle of the street.
19: Delano and I were together for about five or six months and then he
left for Japan. I had [Petitioner] on December 29, 1953. I also smoked
cigarettes while I was pregnant. I smoked cigarettes from the age of
13 to 60. . . .
(emphasis added).
B.
During her investigation for mitigating evidence, mitigation specialist Bovee
interviewed Lois in Atlanta on October 19 and 20, 1998.50 She sent a
memorandum about the interview to Durham, in which she said this about Lois’s
pregnancy and Petitioner’s early childhood:
Lois said she had a normal pregnancy. Virgil was her first and only
child. Forceps were used and she slept most of the time during her
labor. She went into labor at 9 am and Virgil was born at 3:35 am.
Virgil was bottle-fed. Lois smoked a pack a day all during her
pregnancy. She stated that she did not drink except socially. He was
born headfirst and weighed 7lbs. 14 oz. He was 21” long. Virgil was
born at Crawford Long Hospital. When Virgil was 6 weeks old he fell
off a changing table and his face was flattened, Lois said. His nose
bled. Lois’ mother threatened to take Virgil away from Lois due to her
carelessness. Virgil stayed with his grandmother most of the time when
50

On October 20 and 21, Bovee interviewed Petitioner in prison. On October 22,
1998, Bovee informed Durham about her interviews with Petitioner and his mother and
explained that she “had Virgil’s mother prepared to talk to Bob Shaffer when he calls.”

52

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 53 of 69

he was little so Lois could work. She would come get him on the
weekend.
(emphasis added).
The members of the Defense Team were aware of what Lois told Bovee, that
she did not drink during her pregnancy except socially. But they did not know that
she drank to excess “during the entire time [she] was pregnant with [Petitioner].”
The Superior Court, in its order denying Petitioner’s claims, did not comment on
what the Defense Team may have known about Lois’s drinking during her
pregnancy beyond what Bovee reported in her memorandum. The Superior Court
simply found that Defense Counsel’s investigation for mitigating evidence squared
with Strickland’s performance standard.51
The Superior Court found that Schuster and Durham were well qualified to
handle the capital proceeding. They assembled an investigatory team that had
extensive experience in gathering mitigating evidence. In compiling Petitioner’s
life history, Dr. Shaffer examined records of Petitioner’s birth, his schooling,
medical history, mental health evaluations and criminal record. He reviewed
Bovee’s reports of her interviews with Petitioner and his mother and spoke to
Bovee about what she had learned. After that, he interviewed Petitioner, Lois, and
Lillian. The information he gained in this way was reflected in the life history he

51

The Superior Court made the finding on the basis of the facts set out in part III.B,
supra, which we recite in part in the following text.

53

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 54 of 69

assembled. Finally, Dr. Shaffer conferred with Defense Counsel as needed. In
reaching his diagnosis that Petitioner had a pedophilic disorder and minimal brain
disfunction, Dr. Shaffer focused on, among other things, complications during
Lois’s pregnancy and Petitioner’s birth and parental alcoholism.
Turning to the affidavits Petitioner introduced as proof that Defense
Counsel’s performance in connection with the penalty phase retrial was deficient
under Strickland, the Court said this:
The Court has thoroughly reviewed the affidavits submitted by
Petitioner. The Court finds that much of the information gathered and
presented in this challenge to Petitioner’s conviction is cumulative of
the information counsel gathered for Petitioner’s re-sentencing hearing.
The information contained that is not cumulative does not rise to a level
of Constitutional concern. This Court finds that Petitioner’s counsel
conducted sufficient investigation into, and presentation of, mitigating
evidence at Petitioner’s re-sentencing trial. This Court finds that
counsel’s conduct falls within the wide range of reasonable
professional conduct, and that counsel’s decisions were made in the
exercise of reasonable professional judgment. Therefore, this Court
concludes that Petitioner’s claim that counsel failed to adequately
investigate Petitioner’s case is without merit.
The Superior Court denied Petitioner’s habeas petition on December 27,
2005, and the Georgia Supreme Court denied his application for a certificate of
probable cause to appeal on November 6, 2006.
C.
On June 1, 2007, Petitioner turned to the Northern District of Georgia for
relief. He presented forty of the claims the Superior Court had denied, including
54

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 55 of 69

the FASD claim, and petitioned the District Court to set them aside under 28
U.S.C. § 2254(d)(1) and (2) on the grounds that the Superior Court’s adjudications
of the claims were either contrary to, or an unreasonable application of, United
States Supreme Court decisions, including Strickland v. Washington, or based on
an unreasonable determination of the facts presented. The District Court discerned
no basis for disturbing the Superior Court’s disposition of any of Petitioner’s
claims under § 2254(d) and accordingly denied his petition.
The District Court denied Petitioner’s FASD claim after considering it de
novo. It considered the claim de novo because the Superior Court, in adjudicating
the claim, made no explicit reference to the claim (which Petitioner presented
initially in his post-hearing brief). The District Court looked to the core of the
claim: Defense Counsel should have discovered what Lois revealed in her March
9, 2004 affidavit—that she drank during the entire time she was pregnant.
Here is what the District Court found: “[T]rial counsel’s investigator [Toni
Bovee] asked about Petitioner’s mother’s alcohol consumption during her
pregnancy and she told the investigator that ‘she did not drink except socially.’”
Dr. Shaffer, in “assembl[ing] a complete history of Petitioner,” centered on
“complications during pregnancy” and “parental alcoholism.” He “had access to
Petitioner’s mother, and he asked her about her pregnancy and her consumption of
alcohol.” She did not tell Dr. Shaffer of the drinking she described in her Affidavit
55

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 56 of 69

and he attached no significance to her statement to Bovee, that “she did not drink
except socially.” 52
Notably, in a fax transmission to Durham on July 22, 1998, Dr. Shaffer had
told Durham what his “neuropsychological and personality evaluation” of
Petitioner would cover. Among other things, he said he would look into Presnell’s
mother’s “pregnancy and birth complications,” if any, and any “alcoholism” his
mother or father had exhibited. Dr. Shaffer interviewed Petitioner’s mother after
receiving Bovee’s report of her interview with her.
Assuming that Petitioner’s behavior on May 4, 1976, was affected by the
FASD, the District Court found Defense Counsel blameless in not discovering that
he was suffering from the disorder. Indeed,
[t]o the degree that Petitioner actually suffers from FASD, trial counsel
could reasonably rely on his psychological expert to make such a
diagnosis, and Petitioner cannot pin a failed or missed psychological
diagnosis on his lawyers when he was subject to an intensive evaluation
by a competent mental health expert.
Moreover,
[g]iven the fact that three different teams of lawyers investigated
Petitioner’s background and had Petitioner put through thorough expert
mental health evaluations without anyone identifying FASD,
Petitioner’s sudden claim of a missed FASD diagnosis simply cannot
be blamed on trial counsel that represented Petitioner at the
resentencing. This Court thus concludes that Petitioner has failed to
52

These findings are implicit in the District Court’s adjudication of the FASD claim and
are consistent with the Superior Court of Butts County’s findings, which the District Court was
obliged to accord a presumption of correctness pursuant to 28 U.S.C. § 2254(e)(1).

56

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 57 of 69

establish a claim under [Strickland v. Washington] that his trial counsel
was ineffective for failing to discover and present evidence regarding
his purported FASD. 53
After denying the Petitioner’s claims in full, the District Court granted in
part his application for a COA. It certified the FASD claim exactly as presented to
the Superior Court of Butts County.
D.
Petitioner’s argument on appeal is that the District Court misapplied the
Strickland performance standard in rejecting his allegation that Defense Counsel
were derelict in failing to inquire into what Lois meant when she told Bovee that
“she did not drink except socially” while pregnant.54
In his brief on appeal, Petitioner argues:
Given Lois’s admission that she drank “socially” during her pregnancy,
no reasonable counsel would fail to inquire further into the extent of
[Petitioner’s] prenatal exposure to alcohol. Had counsel conducted a
reasonable investigation, they would have learned the scope of Lois’s
drinking—which, in turn, would have alerted their expert to the need to
explore whether [Petitioner] suffered from FASD. That evidence
53

The Court was referring to the lawyers who represented Petitioner at his 1976 trial; the
lawyers who prosecuted the habeas petition he filed in the Superior Court of Butts County on
January 8, 1980, alleging that the 1976 trial counsel’s handling of the mitigating evidence issue
was constitutionally ineffective, see note 5, supra; the lawyers who filed the habeas petition in
the Northern District of Georgia on May 15, 1985, see note 6, supra; and Defense Counsel who
handled the 1999 retrial.
54
Petitioner’s brief on appeal presents an issue that was not included in the COA the
District Court issued: Defense Counsel were ineffective for failing to object to statements Parker
made on behalf of the State in his closing argument to the jury. We do not consider it. See
McClain v. Hall, 552 F.3d 1245, 1254 (11th Cir. 2008) (“In an appeal brought by an
unsuccessful habeas petitioner, appellate review is limited to the issues specified in the certificate
of appealability.” (alterations adopted) (quoting Murray v. United States, 145 F.3d 1249, 1251
(11th Cir. 1998))).

57

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 58 of 69

would have allowed counsel and their expert to appreciate how
[Petitioner’s] organic brain damage amplified the impact of the sexual
violence and deviance to which [he] had been exposed. So informed,
they could have explained to the jury how his neurological development
and background interacted to explain his crime, which would have
given the jury the individualized picture of his culpability necessary to
determine the proper sentence. 55
As an initial matter, our analysis, like the District Court’s, focuses on the
Butts County Superior Court’s decision even though it is not the last state-court

55

Lois’s March 2004 Affidavit does not contain the admission that habeas counsel
referred to in the excerpt above: that Lois drank socially during her pregnancy. Indeed, the
Affidavit is to the contrary. It states that Lois met with Bovee and Defense Counsel on several
occasions: once when Bovee came to Atlanta to interview Lois, then several times on the eve of
trial when Lois met with Bovee and Defense Counsel at their law office or over dinner.
Specifically, Lois said this in paragraph forty-one of her Affidavit, the penultimate paragraph:
A woman named Toni Bovee contacted me prior to Virgil’s last trial. She came to
my house and we talked about Virgil. The next day I went up to her hotel and we
talked again. I think we went out to lunch after we talked. I saw her again at the
lawyer’s office with Lillian right before the trial. Lillian, Willie Samples and I also
had dinner together that night after I met Toni Bovee at the lawyer's office. I met
with the lawyers and Toni Bovee right before the trial started. The lawyers would
say, “If I asked you this what would you say?” and I would then answer what I said.
This maybe took about a half an hour. None of these people asked me many
questions about Virgil’s problems in school, or about how I drank while I was
pregnant with him. I would have been happy to answer any of their questions and
testify in court about anything that I have said in this affidavit.
(emphasis added).
On none of these occasions, the Affidavit concludes, did Bovee or Defense Counsel ask
her about her consumption of alcohol during pregnancy. Had they inquired, Lois claims, she
would have told them what she said in her Affidavit: “I was drinking during the entire time I was
pregnant with [Petitioner].”
Implicit in the Superior Court of Butts County’s adjudication of the FASD claim is the
finding that in 1998 Bovee did, indeed, ask Lois about prenatal alcohol consumption. The
Superior Court of Butts County implicitly made this finding when it explained that Bovee
interviewed Lois, collected a detailed family history from Lois, and learned that Lois smoked a
pack of cigarettes a day and did not drink except socially during the time she was pregnant with
Petitioner. We are obliged to afford that finding a presumption of correctness pursuant to 28
U.S.C. § 2254(e)(1). A habeas petitioner has “the burden of rebutting the presumption of
correctness by clear and convincing evidence.” Id. Under the circumstances here, Lois’s
statement that neither Bovee nor Defense Counsel asked her about her alcohol consumption does
not qualify as clear and convincing rebuttal evidence.

58

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 59 of 69

adjudication on the merits. 28 U.S.C. § 2254(d). The Supreme Court of Georgia
summarily denied Petitioner’s application for a certificate of probable cause to
appeal. That summary decision was the last state-court adjudication on the merits.
Under Wilson v. Sellers, we “presume” that the summary denial adopted the same
reasoning. 138 S. Ct. 1188, 1192 (2018). We thus “‘look through’ the
unexplained decision” of the Supreme Court of Georgia and review the Butts
County Superior Court’s decision. See id.
To succeed on this appeal, Petitioner must establish that the Butts County
Superior Court’s decision was contrary to or involved an unreasonable application
of Strickland. Bell v. Cone, 535 U.S. 685, 698–99, 122 S. Ct. 1843, 1852 (2002).
Under Strickland, a petitioner must show that (1) his counsel’s performance fell
below the standard of objective reasonableness, and (2) his counsel’s deficiency
resulted in prejudice to the petitioner. Strickland, 466 U.S. at 687, 104 S. Ct. at
2064. When analyzing counsel’s performance under Strickland, counsel is given
broad deference. Stewart v. Sec’y, Dep’t of Corr., 476 F.3d 1193, 1209 (11th Cir.
2007). There is a strong presumption that counsel’s representation was reasonable.
Id. Petitioner “must establish that no competent counsel would have taken the
action that his counsel did take.” Chandler v. United States, 218 F.3d 1305, 1315
(11th Cir. 2000) (en banc).

59

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 60 of 69

When a petitioner argues that his counsel was ineffective during the penalty
phase, we determine “whether counsel reasonably investigated possible mitigating
factors and made a reasonable effort to present mitigating evidence to the
sentencing court.” Stewart, 476 F.3d at 1209 (quoting Henyard v. McDonough,
459 F.3d 1217, 1242 (11th Cir. 2006)). This test is objective and based on
counsel’s perspective at the time of the representation. “We must make ‘every
effort . . . to eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to evaluate the conduct from
counsel’s perspective at the time.” Anderson v. Sec’y, Fla. Dep’t of Corr., 752
F.3d 881, 904 (11th Cir. 2014) (quoting Strickland, 466 U.S. at 689, 104 S. Ct.
2065).
Counsel must be reasonable, not perfect or unrelenting. Effective counsel
“is not required to ‘pursue every path until it bears fruit or until all hope withers.’”
Williams v. Head, 185 F.3d 1223, 1237 (11th Cir. 1999) (quoting Foster v.
Dugger, 823 F.2d 402, 405 (11th Cir. 1987)). “[R]easonably diligent counsel may
draw a line when they have good reason to think further investigation would be a
waste.” Rompilla v. Beard, 545 U.S. 374, 383, 125 S. Ct. 2456, 2463 (2005).
Whether an investigation is reasonable largely depends on what information
the defendant and others provide to counsel. See, e.g., Gissendaner v. Seaboldt,
735 F.3d 1311, 1330 (11th Cir. 2013); DeYoung v. Schofield, 609 F.3d 1260, 1286
60

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 61 of 69

(11th Cir. 2010); McClain v. Hall, 552 F.3d 1245, 1251–52 (11th Cir. 2008); Van
Poyck v. Fla. Dep’t of Corr., 290 F.3d 1318, 1325 (11th Cir. 2002). For instance, a
lawyer is not ineffective for failing to discover physical abuse when the lawyer
asks petitioner and his family about abuse, and neither petitioner nor his family
members mention physical abuse. E.g., Van Poyck, 290 F.3d at 1325.
The prejudice element of Strickland is satisfied when “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 694, 104 S. Ct.
2068. Strickland is a conjunctive test, meaning that a petitioner must satisfy both
prongs to succeed.
1.
We begin with the first prong of Strickland: Defense Counsel’s objective
reasonableness. Petitioner’s case is analogous to Nance v. Warden, 922 F.3d 1298
(11th Cir. 2019). The petitioner’s defense counsel in Nance consulted with the
attorneys who represented petitioner at his original trial; reviewed all their files;
hired multiple professionals to help with the mitigation investigation; interviewed
witnesses about petitioner’s childhood, mental health, and potential abuse;
consulted with two mental health professionals; and reviewed school records,
prison records, medical records, and more. Id. at 1301–02. On review, we

61

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 62 of 69

concluded that Nance “[was] as thorough an investigation into mitigating
circumstances as we [had] ever seen.” Id. at 1301.
Defense Counsel’s investigation into mitigating evidence here, like the
investigation we described in Nance, is about as thorough as any other
investigation we have seen. Defense Counsel hired multiple professionals: a third
attorney, McDaniel; an investigator, Pennington; a jury composition expert, Dr.
Maykuth; and a mitigation specialist, Bovee. Defense Counsel hired two mental
health professionals: a neuropsychologist, Dr. Shaffer, and a psychiatrist, Dr.
Porter. Defense Counsel acquired and reviewed records from Petitioner’s 1976
trial, maintained by the attorneys during the 1976 trial; records of the 1980 habeas
corpus proceeding, including records of the mental health evaluations conducted
for that proceeding; records associated with prior incarcerations and records related
to Petitioner’s incarceration following May 4, 1976, including records of mental
health evaluations conducted at the prison; and school and medical records.
Defense Counsel acquired and reviewed photos of Petitioner throughout his life.
Defense Counsel consulted with attorneys who represented Petitioner in the
Presnell III habeas corpus proceedings. Defense Team conducted several
interviews; members of Defense Team interviewed Petitioner; Lois; Petitioner’s
former wife, Gilliland; Petitioner’s son, Terry; Petitioner’s aunts, Peggy and
Lillian; Petitioner’s cousin, Marie Wilerson; and one of Petitioner’s former
62

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 63 of 69

victims, A.H. Finally, Defense Counsel had Dr. Shaffer and Dr. Porter evaluate
Petitioner’s intelligence and mental health.
We are not persuaded by Petitioner’s contention that Defense Counsel was
objectively unreasonable for failing to elicit from Lois that she was binge drinking
during the entire time of her pregnancy with Petitioner. It took nearly twenty-eight
years—from August of 1976 to March of 2004—for Lois’s drinking to surface. As
the District Court observed, “three different teams of lawyers investigated
Petitioner’s background and had Petitioner put through thorough expert mental
health evaluations without anyone identifying FASD.” Lois was there throughout.
She was present in the courtroom for both trials, and she testified at both. She was
interviewed prior to the 1976 trial by defense counsel and presumably his
investigator; she said nothing about drinking throughout her pregnancy to habeas
counsel in 1980, when they sought a writ from the Superior Court of Butts County
on the theory that Petitioner’s attorney had been ineffective in marshaling
mitigating evidence for the penalty phase of the 1976 trial (which would have
included the FASD); and she said nothing to investigators Pennington and Bovee,
or Dr. Shaffer or Defense Counsel when they interviewed her in preparing for the
retrial of the penalty phase.
We have confronted and rejected analogous arguments in the context of
defense attorneys who have failed to discover and present childhood abuse as
63

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 64 of 69

mitigating evidence. See, e.g., Williams, 185 F.3d at 1237. We have explained
that “[a]n attorney does not render ineffective assistance by failing to discover and
develop evidence of childhood abuse that his client does not mention to him.” Id.
Prenatal drinking, like childhood abuse, may be accompanied by shame and
therefore kept secret. Thus, it may not be documented in medical or other records.
Few likely know about the prenatal drinking. And it may be difficult to get an
interview subject to admit to consuming alcohol in utero. As with childhood
abuse, to hold counsel ineffective when counsel fails to elicit that his client’s
mother consumed alcohol while pregnant would present defense attorneys with an
impossible task.
Even if we accept that Lois would have confessed to prenatal binge drinking
if counsel asked what “socially” meant, Defense Counsel still acted reasonably.
Defense Counsel and their experts had plenty of information with which to
evaluate Petitioner. Not only did they have a wealth of information, Defense
Counsel and their experts had access to Petitioner for further examination. Dr.
Shaffer had Bovee’s memorandum—the one indicating that Lois “did not drink
except socially” while pregnant with Petitioner—before he examined Petitioner.
Furthermore, Dr. Shaffer was invited to speak with Lois, and did speak with Lois,
before he examined Petitioner. It was reasonable for Defense Counsel to rely on
Dr. Shaffer to decide whether the Defense Team needed to inquire further about
64

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 65 of 69

Lois’ “social” prenatal drinking. See Rompilla, 545 U.S. at 385, 125 S. Ct. 2463
(“[R]easonably diligent counsel may draw a line when they have good reason to
think further investigation would be a waste.”); Williams, 185 F.3d at 1237
(“[Effective counsel] is not required to ‘pursue every path until it bears fruit or
until all hope withers.’” (quoting Foster, 823 F.2d at 405)).
For the foregoing reasons, Petitioner fails the first prong of Strickland—
counsel acted reasonably. “At the least, fair-minded jurists could so conclude,
which is enough to satisfy AEDPA’s highly deferential standards and preclude
federal habeas relief.” Gissendaner, 735 F.3d at 1330.
2.
We now turn to prejudice, the second prong of Strickland. Dr. Weinstein,
one of Petitioner’s expert witnesses,56 diagnosed Petitioner with FASD. In
reaching his diagnosis, Dr. Weinstein relied on what Lois said in her Affidavit, that
she “drank alcohol for ‘the whole time’ that she was pregnant.” Dr. Weinstein
considered Lois a “binge drinker.” According to his report: “[S]he was a bingedrinker, consuming large quantities of strong liquor in a very short period of time.”
Had Defense Counsel uncovered Lois’s prenatal binge drinking before
Petitioner’s 1999 penalty-phase retrial, they would have had to present testimony
from Lois about her alcohol consumption in order to establish a predicate for Dr.

56

See note 49, supra.

65

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 66 of 69

Weinstein—or an equivalent expert—to give an FASD diagnosis in court.
Furthermore, because the diagnosis would have to rely on Lois’s confession that
she consumed alcohol during the entire time she was pregnant with Petitioner, the
credibility of the diagnosis would depend on Lois’s credibility. For the reasons
discussed below, a jury would have been unlikely to believe Lois’s claim that she
drank alcohol during her entire pregnancy, and Petitioner can therefore not show
prejudice.
If Lois drank throughout her pregnancy, if she was a binge drinker, someone
in her family would have known about it. Throughout her pregnancy, she and the
rest of her family lived in a three-room apartment. It had a front room with two
large beds, one bedroom and a kitchen. Eight members of her immediate family
stayed there: her parents; four sisters (Sarah, Patricia, Lillian, and Brenda); a
brother, James; and her. During the first four or five months of her pregnancy,
Delano was there too, raising the number of occupants to nine.
Delano’s affidavit described the situation in these words: “Lois and I
married shortly after we met and we moved into an apartment together. A couple
of weeks after we married I went to work and returned home and her whole family
had moved into our one-bedroom apartment.” Lois’s Affidavit was to the same
effect: “We had two big beds in the front room, a half bed in the kitchen where
James slept and another bed in the bedroom.” While she was pregnant, five slept
66

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 67 of 69

in the front room: she and Sarah in one bed, Peggy, Brenda, and Lillian in the
other. What is more, in Lois’s Affidavit, she said: “I never grew up around
drinking.” With the family’s environment in mind, it would strain credulity to say
that Lois—a “binge drinker” according to Dr. Weinstein—drank “the whole time”
she was pregnant and no one noticed.
Lillian gave habeas counsel an affidavit on February 9, 2004; Delano
executed one two days later, on February 11, 2004. Neither affidavit contains the
words “alcohol,” “drinking,” “binge drinking,” or “bourbon,” Lois’s “drink of
choice.” This may explain why neither Pennington nor Bovee nor Dr. Shaffer nor
Defense Counsel heard anything from any members of Lois’s family about alcohol
consumption in their household. All they heard came from Lois—that she “did not
drink during her pregnancy except socially.”
Lois signed her Affidavit on March 9, 2004, twenty-seven days after Delano
signed his and twenty-nine days after Lillian signed hers. The close proximity of
the signing of the three affidavits raises the inference that Lillian and Delano were
unable to corroborate Lois’s claim that she drank throughout her pregnancy.
Lois’s alcohol consumption was the key to Petitioner’s FASD claim; if Lillian and
Delano could have corroborated Lois’s claim, habeas Defense Counsel certainly
would have them swear to its truth. By the same token, if Defense Counsel did not
become aware of Lois’s drinking until after February 11 (when Delano signed his
67

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 68 of 69

affidavit), they had time to obtain supplementary (or substitute) affidavits from
Lillian and Delano. Defense Counsel did not, though. We therefore infer that
given the extremely close living and sleeping arrangements in the three-room
apartment on Norcross Street, if Lois was a “binge drinker” and drank bourbon
(her alcohol of choice) “during the entire time [she] was pregnant,” Lillian and
Delano would have known of it. Lillian would have known about it because
people did not drink alcohol in the Edwards household. As Lois put it, she “never
grew up around drinking.”
Had Defense Counsel put on testimony from Lois that she drank to excess
during her pregnancy, followed by testimony from Dr. Weinstein that Petitioner
suffers from FASD, the jury would have made the same connections we are
making here. No one in Lois’s family, who lived together in close quarters during
the relevant time, can corroborate her alcohol consumption during pregnancy. If
she were in fact drinking to excess at that time, the family would have known
about it. The failure to produce any corroborating testimony destroys Lois’s
credibility.
*

*

*

On this record, we would be hard put to say that the District Court erred in
rejecting Petitioner’s FASD claim. Petitioner failed to demonstrate that Defense
Counsel’s conduct in connection with the retrial of the penalty phase fell below
68

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 69 of 69

Strickland’s performance standard. As for its prejudice standard, a retrial of the
penalty phase would result in the same verdict, a death sentence.
The judgment of the District Court is
AFFIRMED.

69

USCA11 Case: 17-14322

Date Filed: 09/16/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

September 16, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 17-14322-P
Case Style: Virgil Presnell v. Warden
District Court Docket No: 1:07-cv-01267-WBH
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call David L. Thomas at (404) 335-6171.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Petitioner’s Appendix 2

USCA11 Case: 17-14322

Date Filed: 12/01/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 17-14322-P
________________________
VIRGIL DELANO PRESNELL,
Petitioner - Appellant,
versus
WARDEN,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: ROSENBAUM, TJOFLAT, and ED CARNES, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

USCA11 Case: 17-14322

Date Filed: 12/01/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

December 01, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 17-14322-P
Case Style: Virgil Presnell v. Warden
District Court Docket No: 1:07-cv-01267-WBH
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: (404) 335-6171
REHG-1 Ltr Order Petition Rehearing

Petitioner’s Appendix 3

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 1 of 38

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
VIRGIL DELANO PRESNELL,
Petitioner,
v.
ERIC SELLERS,
Respondent.

:
:
:
:
:
:
:

CIVIL ACTION NO.
1:07-CV-1267-WBH
DEATH PENALTY
HABEAS CORPUS

ORDER
Background and Factual Summary
This matter is now before the Court for consideration of the Parties’ final briefs.
Petitioner is a prisoner under a death sentence stemming from his 1976 convictions in
Cobb County Superior Court. He has pending before this Court a petition for a writ
of habeas corpus pursuant to 28 U.S.C. § 2254.
According to the Georgia Supreme Court,
The evidence adduced at trial authorized the jury to find that on April 23,
1976, [Petitioner] attempted to abduct a ten-year-old girl in Clayton
County as she was walking home from school on a wooded trail.
Although he grabbed her and threatened her with a knife, the girl
managed to break free and escape. On May 3, 1976, [Petitioner] staked
out an elementary school in Cobb County and observed a ten-year-old
girl walking home on a wooded trail. He returned the following day and
waited on the trail. In his car, he had a rug and a jar of lubricant. When
the ten-year-old girl came walking down the trail with her eight-year-old
friend, Lori Ann Smith, [Petitioner] abducted both girls. He taped their
mouths shut and threatened to kill them if they did not cooperate; he also
said he had a gun. They got into [Petitioner]’s blue Plymouth Duster.
While [Petitioner] was driving, he forced the older girl to orally sodomize

AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 2 of 38

him and inserted his finger into her vagina. They drove to a secluded
area and [Petitioner] walked the children into the woods. He carried the
rug and the jar of lubricant. He made both girls undress and he raped the
older girl on the rug. Her vagina was torn during the rape and began
bleeding. [Petitioner] then said that he was going to take Lori Ann back
to his car and that the older girl should wait for him. On the way back to
the car, Lori Ann tried to run away, but [Petitioner] caught her and forced
her face underwater in a creek, drowning her. The medical examiner
testified that there was water, sand and plant matter in her lungs and
stomach and that it would have taken one to several minutes for her to
die. She had bruises on her neck and a bruise on her back from where
[Petitioner] apparently placed his knee. [Petitioner] returned to the older
girl and again forced her to orally sodomize him. He then locked her in
his car trunk and began driving, but a tire went flat so he dropped her off
in another wooded area after forcing her to commit oral sodomy again.
Although [Petitioner] told her he would return, the older girl heard the
sound of a nearby gas station and walked there. She later gave police a
description of [Petitioner] and his blue Duster and stated that his tire was
flat. Shortly thereafter the police spotted [Petitioner] changing a tire on
his blue Duster at his apartment complex not far from where he dropped
off the older girl. [Petitioner] initially denied everything but later
admitted that he knew the location of the missing girl and led the police
to Lori Ann’s body. He also confessed. A search of [Petitioner]’s
bedroom uncovered a handgun and child pornography depicting young
girls.
Presnell v. State, 551 S.E.2d 723, 728 (Ga. 2001).
The extensive procedural history of Petitioner’s convictions, sentences, appeals,
and habeas corpus proceedings is set forth in detail in this Court’s order of March 15,
2013, [Doc. 28], and there is no reason to repeat that information here other than to
note that Petitioner filed an earlier petition pursuant to § 2254 in this Court, and, on
July 11, 1990, the Honorable Robert L. Vining, Jr., reversed Petitioner’s death
2
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 3 of 38

sentence due to an improper closing argument by the prosecutor in the penalty phase
of Petitioner’s trial. Judge Vining denied relief on all other grounds. After the
Eleventh Circuit affirmed this Court’s grant of relief with respect to the death sentence,
Presnell v. Zant, 959 F.2d 1524 (11th Cir. 1992), a resentencing trial was held in Cobb
County Superior Court resulting in another death sentence on March 16, 1999. The
jury found the following statutory aggravating circumstances to impose the death
penalty; (1) that the murder of Lori Ann Smith was committed by the defendant
while the defendant was engaged in the commission of another capital felony, the
aggravated sodomy of the older girl; and (2) that the murder of Lori Ann Smith was
outrageously and wantonly vile, horrible, and inhuman in that it involved torture and
depravity of mind. The Georgia Supreme Court affirmed this death sentence, the
United States Supreme Court denied certiorari, and Petitioner did not prevail in his
subsequent state habeas corpus proceedings.
Accordingly, because Petitioner’s original convictions have already been subject
to habeas corpus review before this Court, review in this case is limited to whether
Petitioner’s rights were violated in the resentencing in 1999.
In the instant case, this Court concluded by order of March 25, 2013, that
Petitioner’s Claims IV, VI, VII, XIX, XXIII, XXVII, XXVIII, XXIX, XXXI, XXXIII,
XXXIV, XXXVI, as raised in the amended petition, [Doc. 13], are procedurally
3
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 4 of 38

defaulted, without prejudice to Petitioner demonstrating cause and prejudice to
overcome the default. [Doc. 28]. In the same order, this Court held that Petitioner’s
Claims V, XXXII, and XXXVII are also procedurally defaulted and that Petitioner had
established cause to excuse the default so that those claims are deemed procedurally
defaulted without prejudice to Petitioner demonstrating prejudice to excuse the default.
Further, this Court concluded that the portion of Petitioner’s Claim II based on mental
illness and the entirety of Claims XVIII and XXX are procedurally defaulted and that
there is no basis upon which to excuse the default. Accordingly, those claims were
dismissed.
In his final brief, Petitioner addresses only his Claims I, II, III, IV, V, and XLII.
Accordingly, because he failed to establish cause and prejudice for his Claims VI, VII,
XIX, XXIII, XXVII, XXVIII, XXIX, XXXI, XXXIII, XXXIV, XXXVI, and he failed
to establish prejudice for his claims XXXII, and XXXVII, relief as to those claims is
hereby DENIED.

Habeas Corpus Standard of Review
Pursuant to 28 U.S.C. § 2254, a federal court may issue a writ of habeas corpus
in behalf of a person held in custody pursuant to a judgment of a state court if that
person is held in violation of his rights under federal law. 28 U.S.C. § 2254(a). This
4
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 5 of 38

power is limited, however, because a restriction applies to claims that have been
“adjudicated on the merits in State court proceedings.” § 2254(d). Under § 2254(d),
a habeas corpus application “shall not be granted with respect to [such a] claim . . .
unless the adjudication of the claim”
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
This standard is “difficult to meet,” Harrington v. Richter, 562 U.S. 86, 102
(2011), and “highly deferential” demanding “that state-court decisions be given the
benefit of the doubt,” Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (citation and
internal quotation marks omitted), and requiring the petitioner to carry the burden of
proof. Cullen v. Pinholster, 131 S. Ct. 1388, 1398 (2011) (citing Visciotti, 537 U.S.
at 25. In Pinholster, the Supreme Court further held,
that review under § 2254(d)(1) is limited to the record that was before the
state court that adjudicated the claim on the merits. Section 2254(d)(1)
refers, in the past tense, to a state-court adjudication that “resulted in” a
decision that was contrary to, or “involved” an unreasonable application
of, established law. This backward-looking language requires an
examination of the state-court decision at the time it was made. It follows
that the record under review is limited to the record in existence at that
same time i.e., the record before the state court.

5
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 6 of 38

Id.; see also Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003) (State court decisions are
measured against Supreme Court precedent at “the time the state court [rendered] its
decision.”).
Moreover, any state court denial of a claim is presumed to be adjudicated on the
merits, Harrington v. Richter, 562 U.S. 86, 99 (2011), and no explanation for the state
court’s denial of relief is required for the decision to fall within the scope of § 2254(d).
Wright v. Sec'y for Dep’t of Corr., 278 F.3d 1245, 1255 (11th Cir. 2002); accord
Harrington, 562 U.S. at 98 (§ 2254 applies even if the state court’s decision is
unaccompanied by an explanation or fails to say that it is adjudicating the claim “on
the merits”).
In Williams v. Taylor, 529 U.S. 362 (2000), the Supreme Court analyzed how
federal courts should apply § 2254(d). To determine whether a particular state court
decision is “contrary to” then-established law, this Court considers whether that
decision “applies a rule that contradicts [such] law” and how the decision “confronts
[the] set of facts” that were before the state court. Id. at 405, 406 (2000). If the state
court decision “identifies the correct governing legal principle” this Court determines
whether the decision “unreasonably applies that principle to the facts of the prisoner’s
case.” Id., at 413. This reasonableness determination is objective, and a federal court
may not issue a writ of habeas corpus simply because it concludes in its independent
6
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 7 of 38

judgment that the state court was incorrect. Id. at 410. In other words, it matters not
that the state court’s application of clearly established federal law was incorrect, so
long as that misapplication was objectively reasonable. Id. (“[A]n unreasonable
application of federal law is different from an incorrect application of federal law.”).
Habeas relief is precluded “so long as fairminded jurists could disagree on the
correctness of the state court’s decision.” Harrington v. Richter, 562 U.S. 86, 102
(2011) (internal quotation marks omitted); see Landers v. Warden, Atty. Gen. of Ala.,
776 F.3d 1288, 1294 (11th Cir. 2015).
This Court’s review of Petitioner’s claims is further limited under § 2254(e)(1)
by a presumption of correctness that applies to the factual findings made by state trial
and appellate courts. Petitioner may rebut this presumption only by presenting clear
and convincing evidence to the contrary.

Discussion of Petitioner’s Claims for Relief Discussed in his Final Brief
Claim I - Ineffective Assistance of Trial Counsel
Legal Standard
In his Claim I, Petitioner claims that his trial counsel was constitutionally
ineffective. The standard for evaluating claims of ineffective assistance of counsel is
set forth in Strickland v. Washington, 466 U.S. 668 (1984). See Smith v. Robbins, 528
7
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 8 of 38

U.S. 259, 285 (2000) (applying Strickland standard to claims of ineffective assistance
of appellate counsel). The analysis is two-pronged, and the court may “dispose of the
ineffectiveness claim on either of its two grounds.” Atkins v. Singletary, 965 F.2d
952, 959 (11th Cir. 1992); see Strickland, 466 U.S. at 697 (“There is no reason for a
court deciding an ineffectiveness claim . . . to address both components of the inquiry
if the [petitioner] makes an insufficient showing on one.”).
Petitioner must first show that “in light of all the circumstances, the identified
acts or omissions were outside the wide range of professionally competent assistance.”
Strickland, 466 U.S. at 690. The court must be “highly deferential,” and must “indulge
in a strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id. at 689. Furthermore, “[s]trategic decisions
will amount to ineffective assistance only if so patently unreasonable that no
competent attorney would have chosen them.” Kelly v. United States, 820 F.2d 1173,
1176 (11th Cir. 1987).
In order to meet the second prong of the test, Petitioner must also demonstrate
that counsel’s unreasonable acts or omissions prejudiced him. Strickland, 466 U.S. at
694. That is, Petitioner “must show that there is a reasonable probability that, but for
the counsel’s unprofessional errors, the result of the proceeding would have been

8
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 9 of 38

different. A reasonable probability is a probability sufficient to undermine confidence
in the outcome.” Id.

Trial Counsel’s Investigation for and Presentation of the Case in Mitigation
In his first three claims of ineffective assistance, Petitioner contends that his trial
counsel failed to properly prepare for and present his case in mitigation at his
resentencing trial. Two claims relate to evidence that trial counsel supposedly missed
regarding Petitioner’s mental capacity and his predilection for having sex with
underage girls, his implication being that had trial counsel presented this evidence at
the resentencing trial, the jury would not have imposed the death penalty. Petitioner
also asserts a claim that the evidence that trial counsel did present was inadequate. For
a variety of reasons, this Court concludes that Petitioner has not, through these claims,
established that his constitutional rights were violated.
In its final order, the state habeas corpus court provided a detailed and
undisputed description of the high level of experience of trial counsel, as well as that
of the investigator, jury composition expert, and mitigation specialist that trial counsel
hired to work on Petitioner’s behalf. [Res. Ex. 119 at 32-34]. This Court will not
repeat that discussion here but notes that the state court’s findings are fully supported
in the record and that trial counsel and the various experts and investigators working
9
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 10 of 38

for Petitioner were accomplished professionals with significant experience in death
penalty cases. As such, the presumption that trial counsel acted effectively is even
stronger. Lawrence v. Sec’y Fla. Dep’t of Corr., 700 F.3d 464, 478 (11th Cir. 2012);
Chandler v. United States, 218 F.3d 1305, 1316 (11th Cir. 2000); Fugate v. Head, 261
F.3d 1206, 1216 (11th Cir. 2001); Williams v. Head, 185 F.3d 1223, 1228-29 (11th
Cir. 1999).
This Court further stresses that, in addition to their own thorough investigation,
trial counsel had the benefit of the investigations that trial counsel from the first trial
had performed as well as the investigations from Petitioner’s first round of habeas
corpus proceedings. [See Resp. Exh. 119 at 34]. The state habeas corpus court
provides a detailed description of the investigation undertaken by trial counsel, the
investigator and the mitigation specialist, [id. at 34-38], as well as the mental health
information that trial counsel reviewed from a psychologist they hired in addition to
that of the psychiatrist that worked with Petitioner prior to the first trial and the mental
health expert that worked with Petitioner in preparing for the first round of habeas
corpus proceedings, [id. at 38-40]. Again, this Court will not repeat that information
here, but it is clear that trial counsel conducted a thorough and sifting investigation into
Petitioner’s background and social history and fully reviewed the information
collected in the prior investigations. As a result, it would be highly unlikely that trial
10
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 11 of 38

counsel for the resentencing trial missed anything significant in Petitioner’s
background.
According to the Eleventh Circuit, “the mere fact a defendant can find, years
after the fact, a mental health expert who will testify favorably for him does not
demonstrate that trial counsel was ineffective for failing to produce that expert at trial.”
Davis v. Singletary, 119 F.3d 1471, 1475 (11th Cir. 1997). Further, “[i]t is common
practice for petitioners attacking their death sentences to submit affidavits from
witnesses who say they could have supplied additional mitigating circumstance
evidence, had they been called, or, if they were called, had they been asked the right
questions.” Waters v. Thomas, 46 F.3d 1506, 1513-14 (11th Cir. 1995). “The mere
fact that other witnesses might have been available or that other testimony might have
been elicited from those who testified is not a sufficient ground to prove
ineffectiveness of counsel.” Foster v. Dugger, 823 F.2d 402, 406 (11th Cir. 1987).
This is not to say that it is impossible to prevail with a claim that trial counsel
failed in the preparation or presentation of the defense at the penalty phase of a capital
trial. For example in both Williams v. Taylor, 529 U.S. 362 (2000), and Wiggins v.
Smith, 539 U.S. 510 (2003), the Supreme Court concluded, inter alia, that trial counsel
had been ineffective in failing to present evidence of the death penalty defendants’
extremely troubled childhood during the penalty phase of the trial. The facts presented
11
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 12 of 38

in those cases depict an almost unfathomable level of deprivation. In Wiggins, there
was evidence that
[Wiggins’] mother, a chronic alcoholic, frequently left Wiggins and his
siblings home alone for days, forcing them to beg for food and to eat
paint chips and garbage. Mrs. Wiggins’ abusive behavior included
beating the children for breaking into the kitchen, which she often kept
locked. She had sex with men while her children slept in the same bed
and, on one occasion, forced petitioner’s hand against a hot stove burner
– an incident that led to petitioner’s hospitalization. At the age of six, the
State placed Wiggins in foster care. Petitioner’s first and second foster
mothers abused him physically, and, as petitioner explained to [a licensed
social worker], the father in his second foster home repeatedly molested
and raped him. At age 16, petitioner ran away from his foster home and
began living on the streets. He returned intermittently to additional foster
homes, including one in which the foster mother’s sons allegedly
gang-raped him on more than one occasion. After leaving the foster care
system, Wiggins entered a Job Corps program and was allegedly sexually
abused by his supervisor.
Wiggins, 539 U.S. at 516-17.
In Williams v. Taylor, Terry Williams’ childhood was equally distressing.
Williams’ parents were severe alcoholics who were often so drunk that they were
incapable of caring for the children. When social workers arrived at the Williams
home on one occasion, conditions were not habitable, including human feces in several
places on the floor. The social workers had to remove the children because, among
other reasons, the children were drunk from consuming moonshine. Williams’ parents
were each charged with five counts of criminal neglect. Acquaintances of the family
testified (1) that Williams’ father would strip Williams naked, tie him to a bed post and
12
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 13 of 38

whip him about the back and face with a belt, and (2) that Williams’ parents engaged
in repeated fist fights that terrorized the children. Williams’ trial attorneys also
ignored or failed to discover evidence of Williams’ borderline retardation, organic
brain damage caused by head injury, and Fetal Alcohol Syndrome. See generally,
Williams v. Taylor, 1999 WL 459574 (Brief for Petitioner).
The evidence presented by Petitioner in this action pales in comparison to the
horrific facts of Williams and Wiggins. Petitioner has presented scant evidence of
physical abuse, and he denies that he was sexually abused. See Strickland, 466 U.S.
at 691. There is further no evidence that Petitioner was deprived of food or minimally
habitable living conditions. Neither Petitioner nor his siblings were removed from
their home by the state because of neglect. Moreover, as is discussed below,
Petitioner’s claims are not about extreme deprivation that he suffered as a child, but
about his mental/psychological issues – a difference that this Court concludes is
significant to the resolution of his claims. This Court is not convinced that the jury
would have been particularly swayed by testimony regarding Petitioner’s mental
impairments. Given his crimes, the jury likely already suspected that Petitioner
suffered from some form of mental abnormality, and putting a label on that deficiency
does not necessarily serve to mitigate the crimes that he committed. Indeed, the

13
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 14 of 38

evidence that Petitioner suffered from irreversible brain damage may well have
convinced the jury of his incorrigibility.
In response to Petitioner’s contention that trial counsel was ineffective in failing
to present a reasonable case in mitigation at the resentencing trial, this Court points to
the state habeas corpus court’s discussion of the evidence that trial counsel presented
at the resentencing trial.
At Petitioner’s resentencing trial, Counsel’s presentation focused on
Petitioner’s substandard upbringing in public housing and his lack of a
male role model. Counsel elicited testimony regarding Petitioner’s good
behavior in prison; that Petitioner had been sexually assaulted while in
prison; that Petitioner received a GED while in prison; and that Petitioner
married while in prison. Counsel introduced information regarding
Petitioner’s school records, poor academic performance and constant
moves. Counsel called various members of Petitioner’s family to recount
Petitioner’s childhood to the jury. The testimony of these family
members included descriptions of the poor, cramped conditions in which
Petitioner lived and of the influence of Petitioner’s father and uncle on
Petitioner’s early life; information about the relationships Petitioner
developed while incarcerated; and information about the gifts Petitioner
made to various family members while incarcerated. Counsel further
introduced a number of photographs of Petitioner. Finally, counsel called
Petitioner’s mother, who testified at length about Petitioner’s family
history, including the lack of stability, poverty, lack of male role models
and possible abuse Petitioner experienced early in life, and about the
progress Petitioner had made since his arrest. Petitioner’s mother asked
the jury to spare Petitioner’s life.
Counsel also introduced the testimony of Dr. Shaffer, whose credentials
were extensively discussed, which included a discussion of the “thorough
history” of Petitioner’s family assembled by Dr. Shaffer and of the sexual
abuse Petitioner’s uncle perpetrated upon members of Petitioner’s family.
Dr. Shaffer testified that Petitioner’s family history may have influenced
14
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 15 of 38

Petitioner’s behavior and thinking from an early age. Dr. Shaffer also
presented results from a variety of psychological tests, which showed that
Petitioner had abnormal knowledge of sexual behavior at the age of eight,
that Petitioner functioned at the upper limits of the mentally defective
range for intelligence and that Petitioner often retreated into a fantasy
world to escape the abuse he suffered/experienced at home. Dr. Shaffer
testified that Petitioner’s relationships with his aunts confused his notions
of sexual and gender relationships, as evidenced by Petitioner’s habits of
playing with dolls and dressing in girl’s clothing when playing with his
aunts. Moreover, Dr. Shaffer described test results that indicated high
levels of schizophrenia and paranoia and said there were indications of
a possible brain injury resulting in impairment of the frontal brain process
affecting a person’s spacial comprehension. Dr. Shaffer testified that on
the basis of all of the information he had gathered, he had diagnosed
Petitioner with pedophiliac disorder, and noted that pedophiliac disorder
is recognized as a major mental illness, the treatment of which had
increased since Petitioner’s arrest.
Petitioner’s attorneys also presented the testimony of Chuck Owens, a
former counselor at the prison, regarding Petitioner’s progress since his
incarceration. Chuck Owens’ testimony included discussion of
Petitioner’s attainment of his GED and completion of correspondence
classes, and Petitioner’s then-recent IQ tests, which showed Petitioner to
be borderline mentally retarded.
Finally, counsel thoroughly prepared for the testimony of Dr. Joseph
Burton, the State’s forensic scientist. Dr. Burton had testified at
Petitioner’s first trial that Lori Smith’s death could have been accidental.
Counsel spoke with Dr. Burton a number of times before calling him as
a witness. Counsel elicited testimony from Dr. Burton as to
improvements in the state’s procedures that could have revealed more
evidence in Petitioner’s original trial; that it would be possible for
someone to struggle and drown without another person intentionally
holding them down; and that the bruises and abrasions on Lori Ann
Smith’s body were not inconsistent with the defense’s accident theory.
[Resp. Exh. 119 at 41-43 (citations to the internal record omitted)].

15
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 16 of 38

The state habeas corpus court then concluded that Petitioner had failed to
demonstrate either prong of the Strickland standard. [Id.]. While Petitioner may
quibble with the choices that trial counsel made in presenting this evidence, he has
failed to demonstrate that those choices were not reasonable strategic decisions. His
only discussion of trial counsel’s strategic decisions relates to the issue of whether
Petitioner suffers from FASD (discussed below). Because this Court has found that
trial counsel thoroughly investigated Petitioner’s background, social history, education,
and mental health, this Court must conclude that any decisions made by trial counsel
regarding what evidence to present were reasonable, informed, and strategic decisions.
See Chandler v. United States, 218 F.3d 1305, 1319 (11th Cir. 2000) (“Counsel is not
required to present every nonfrivolous defense; nor is counsel required to present all
mitigation evidence, even if the additional mitigation evidence would not have been
incompatible with counsel’s strategy.”).

Counsel was not Ineffective for Failing to Diagnose and Argue Fetal Alcohol
Spectrum Disorder
Turning to Petitioner’s next claim of mental deficiencies, he asserts that trial
counsel missed the fact that his mother drank to excess while she was pregnant with
him, causing Fetal Alcohol Spectrum Disorder (FASD), resulting in “profound organic
16
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 17 of 38

brain damage and cognitive deficits.” [Doc. 48 at 15.] Petitioner claims that his trial
counsel failed to discover this fact and that had trial counsel learned about Petitioner’s
FASD and presented that information to the jury, he would not have received the death
penalty.
As Respondent points out, however, trial counsel’s investigator asked about
Petitioner’s mother’s alcohol consumption during her pregnancy and she told the
investigator that “she did not drink except socially.” [Resp. Exh. 78 at Bates 176; see
Resp. Exh. 119 at 37]. Moreover, in preparing their case in mitigation, trial counsel
hired Dr. Robert D. Shaffer, a clinical psychologist with specialized training in
neuropsychology. As described by the state habeas corpus court and not disputed by
Petitioner:
Dr. Shaffer assembled a complete history of Petitioner, which included
Petitioner’s educational history, birth history, medical history, early
childhood educational experiences and mental health evaluations by
speaking to Petitioner’s mother and Aunt Lillian; reviewing [the trial
mitigation specialist]’s reports and speaking with her about her
interviews; and reviewing other information assembled by counsel. Dr.
Shaffer focused on head injuries; complications during pregnancy and
birth; verbal, physical or sexual abuse; parental alcoholism; and mental
and emotional problems. Dr. Shaffer spent fifteen to twenty hours
interviewing and testing Petitioner, during which Dr. Schaffer
administered numerous psychological and intelligence tests. Dr. Shaffer
diagnosed Petitioner with pedophilic disorder and minimal brain
dysfunction. Prior to presenting Dr. Shaffer’s testimony at Petitioner’s
resentencing trial, counsel thoroughly reviewed Dr. Shaffer’s evaluation,
met and spoke with Dr. Shaffer several times and independently
researched Dr. Shaffer’s diagnosis.
17
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 18 of 38

[Resp. Exh. 119 at 39 (citations to the state court record omitted)].
Clearly, Dr. Shaffer had access to Petitioner’s mother, and he asked her about
her pregnancy and her consumption of alcohol. To the degree that Petitioner actually
suffers from FASD, trial counsel could reasonably rely on his psychological expert to
make such a diagnosis, and Petitioner cannot pin a failed or missed psychological
diagnosis on his lawyers when he was subject to an intensive evaluation by a
competent mental health expert.
In arguing that the state court’s conclusions regarding this claim are not entitled
to § 2254(d) deference, Petitioner first provides a detailed discussion on the duties of
trial counsel in preparing for the sentencing portion of a death penalty trial. He then
makes a few criticisms of the state court’s analysis, first by arguing that the state
habeas court cited the Supreme Court’s decision in Wiggins v. Smith, 539 U.S. 510
(2003), for the proposition that deficient performance for failure to investigate occurs
only when trial counsel fails to investigate “‘any of the facts of a petitioner’s life and
background despite their awareness of petitioner’s misery as a youth.’” [Doc. 48 at 67
(quoting Resp. Exh. 119 at 43 (internal quotations, citations, and alterations omitted))].
Petitioner, however, has misrepresented what the state court said. When read in
context, it is clear that the state habeas corpus court correctly identified the Strickland
standard as it has evolved, and the court merely noted that the trial counsel in Wiggins
18
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 19 of 38

had failed to investigate the petitioner’s background.

Contrary to Petitioner’s

argument, the state courts did not suggest “that any investigation at all will suffice to
establish that counsel did not perform deficiently,” [Doc. 48 at 69], but rather found
– and found correctly – that trial counsel’s investigation was sufficient to satisfy
constitutional requirements.
Petitioner next faults the state habeas corpus court for noting that much of the
evidence presented in that action was either “cumulative of the information counsel
gathered for Petitioner’s resentencing trial,” or did not rise “to a level of Constitutional
concern.” [Id. (citing Resp. Exh. 119 at 44)]. Petitioner asserts that the state court was
incorrect because his main contention is that he suffers from FASD, FASD was not
presented at the resentencing trial, and that evidence would have likely changed the
outcome of his resentencing. As is noted above, however, if Petitioner suffers from
FASD, his trial counsel cannot be faulted for failing to discover it because Petitioner’s
mother did not tell anyone that she drank to excess during her pregnancy until after the
trial and because trial counsel reasonably relied on the psychological expert to make
that kind of diagnosis.
Contrary to Petitioner’s arguments, this is not a case where trial counsel failed
to investigate and present key mitigation evidence. The record is clear that trial
counsel thoroughly and completely investigated Petitioner’s background, and that
19
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 20 of 38

investigation was performed in addition to and on top of two previous thorough
investigations that were performed in prior phases of Petitioner’s litigation odyssey
and from which trial counsel obviously benefitted. Given the fact that three different
teams of lawyers investigated Petitioner’s background and had Petitioner put through
thorough expert mental health evaluations without anyone identifying FASD,
Petitioner’s sudden claim of a missed FASD diagnosis simply cannot be blamed on
trial counsel that represented Petitioner at the resentencing. This Court thus concludes
that Petitioner has failed to establish a claim under Strickland that his trial counsel was
ineffective for failing to discover and present evidence regarding his purported FASD.

Counsel’s Purported Failure to Obtain the Services of an Expert in Sexual
Predation
Petitioner next claims that trial counsel was constitutionally ineffective for
failing to hire an expert in sexual predation. According to Petitioner, if trial counsel
had hired an expert like the one that testified for him in the state habeas corpus
proceedings, that expert would have provided evidence regarding Petitioner’s
pedophilia and why Petitioner became a pedophile that would have been sufficient to
convince the jury not to impose a death penalty.

20
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 21 of 38

This Court first notes that it is entirely unconvinced that a thorough explanation
of Petitioner’s pedophilia would, in the minds of a jury, sufficiently mitigate the fact
that Petitioner sexually assaulted two young girls, killing one of them, for his sexual
gratification. Moreover, this Court returns to the fact that trial counsel hired a mental
health expert upon whom they reasonably relied. This Court has already noted that the
fact that Petitioner now has a different expert who might provide more information or
different information does not demonstrate ineffectiveness on the part of trial counsel.
Davis v. Singletary, 119 F.3d at 1475.
Finally, it is clear from the record that trial counsel was well aware of
Petitioner’s pedophilia and that they researched the issue thoroughly as found by the
state habeas corpus court, [Resp. Exh. 119 at 40], and Petitioner has failed to present
evidence or argument sufficient for this Court to conclude that the state habeas corpus
court’s conclusion that trial counsel was not ineffective is not entitled to deference
under § 2254(d).

21
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 22 of 38

Counsel was not Ineffective for Failing to Object to the Prosecution’s Closing
Argument
Petitioner further claims that his trial counsel was ineffective in failing to object
to a statement regarding Petitioner’s future dangerousness made by the prosecutor
during closing arguments at the resentencing trial. This claim relates to Petitioner’s
Claim IV, in which Petitioner claims that the statement itself violated his rights. As
this Court discusses below, beginning at page 27, the challenged prosecutorial
statement did not violate Petitioner’s rights.

Accordingly, Petitioner cannot

demonstrate prejudice relating to his argument that trial counsel should have objected
to the statement.

Counsel was not Ineffective for Failing to Hire a Pathologist
On page 78, footnote 33, of his final brief, Petitioner “incorporates by reference
pages 64-70 of his amended petition, Doc. No. 13, which sets out in detail his claim
that counsel provided ineffective assistance in failing to retain an independent
pathologist.” According to Petitioner, such an expert could have provided testimony
to support Petitioner’s contention that Lori Smith’s murder was accidental.
At the guilt phase of his first trial, back in 1976, Petitioner testified that he had
no intent to kill or even to harm Lori. Rather, he claimed that she “had drowned when
22
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 23 of 38

he accidentally toppled over upon her into a creek bed filled with water.” [Doc. 13 at
65]. As discussed above, however, trial counsel did prepare for the testimony of the
state’s forensic scientist, and elicited the testimony that it would be possible for
someone to struggle and drown without another person intentionally holding them
down and that the injuries on Lori’s body were not inconsistent with Petitioner’s
accident theory. As such, the testimony of the forensic expert that Petitioner says trial
counsel should have hired would have been cumulative of the evidence already before
the jury.
Moreover, while Petitioner’s accident theory is technically possible, it is not at
all plausible. Common sense indicates that a mere dunking is not sufficient to cause
someone to drown, there is no indication that Lori suffered a head injury sufficient to
cause her to loose consciousness or other injuries that would cause her to be unable to
breathe, and, because the water in the creek bed was no more than eight inches deep
at the deepest point, [Resp. Exh. 2 at Bates 249], it cannot be said that Lori drowned
because she could not swim. This Court also points out that Petitioner had admitted
to the police in an earlier statement that, when he and Lori got to the creek, “I just
pushed her down into the creek and held her there. Well, she was kicking and trying
to get out but I just held her there until she stopped kicking. Well, I figured she was
dead . . . .” [Resp. Exh. 2 at Bates 519]. Indeed, numerous aspects of Petitioner’s trial
23
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 24 of 38

testimony were simply not believable because they were contrary to clear evidence
presented at the trial as well as Petitioner’s prior statements. It is thus clear, trial
counsel would not have been able to convince the jury that Petitioner had accidentally
killed Lori even if they had presented the evidence that Petitioner now claims that they
should have, and Petitioner cannot demonstrate prejudice from trial counsel’s failure
to present the testimony of a forensic scientist.

Claim II - Petitioner has Failed to Demonstrate that he is Mentally Retarded
In his Claim II, Petitioner claims that his poor intellectual functioning renders
him ineligible for the death penalty under the Supreme Court’s decision in Atkins v.
Virginia, 536 U.S. 304 (2002) (holding that the Eighth Amendment prohibits executing
the mentally retarded). In order to demonstrate that he is mentally retarded, Petitioner
must show that (1) before the age of eighteen years (2) he suffered from significantly
sub-average intellectual functioning which is accompanied by (3) significant
limitations in adaptive functioning. See Atkins, 536 U.S. at 309 n.3 (discussing the
diagnostic criteria promulgated by the American Association on Mental Retardation
and the American Psychiatric Association). Significant sub-average intellectual
functioning is loosely defined as an intelligence quotient of 70 or below. Hall v.
Florida, 134 S. Ct. 1986, 1994 (2014)
24
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 25 of 38

In denying relief on this claim, the state habeas corpus court noted that the
psychologist who examined Petitioner in conjunction with his resentencing trial
evaluated Petitioner’s intellectual functioning and determined that he was not mentally
retarded after scoring a 90 on an IQ test. [Resp. Exh. 119 at 46]. The court further
recounted that
At age 15, Petitioner's IQ was scored at 79, but the evaluator also noted
that Petitioner's achievement should be higher than is indicated on these
tests. In 1976, Petitioner was evaluated as working within the normal
range of intelligence and found to have an IQ of 96 at Central State
Hospital. In 1976, Dr. Porter found Petitioner to be of average or
slightly below average intelligence. Petitioner obtained a GED while
incarcerated and has completed correspondence courses through a junior
college in drafting and finishing.
[Id.].
In his final brief, Petitioner discusses his cognitive functioning at length, but he
entirely fails to provide any evidence that he suffered any limitations in adaptive
functioning, and his evidence that he suffered from intellectual deficits before the age
of eighteen is scant at best. Most significantly, even Petitioner’s expert in the state
habeas corpus proceeding could not diagnose him as mentally retarded based on how
he performed in testing. In short, as Petitioner has failed to establish a claim under
Atkins that he is retarded, and he has never been diagnosed as mentally retarded, this
Court cannot grant him relief on this claim.

25
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 26 of 38

Claim III - Petitioner’s Claim that the Extended Time that he has Spent on Death Row
is Excessive in Violation of the Eighth Amendment
Petitioner was first convicted and sentenced to death in 1976. Obviously, he has
been under a death sentence for an extended period of time, and in his Claim III,
Petitioner argues that executing him after he has been on death row for so long would
constitute an Eighth Amendment violation. Ignoring the question of whether this
claim is procedurally amenable to review under § 2254, this Court points out that it is
bound by the Eleventh Circuit’s decision in Thompson v. Sec’y for Dept. of Corr., 517
F.3d 1279, 1283-84 (11th Cir. 2008), in which that court discussed a similar claim as
follows:
Petitioner can identify no case in which the Supreme Court has held that
prolonged confinement on death row violates a prisoner’s constitutional
rights. The only Supreme Court acts involving this issue are denials of
petitions for writs of certiorari. See, e.g., Allen v. Ornoski, 546 U.S. 1136
(2006) (denying certiorari where the petitioner had been on death row for
23 years). The state circuit court, in denying Petitioner’s motion for
post-conviction relief, relied on Lackey v. Texas, 514 U.S. 1045 (1995),
in which the Supreme Court denied a petition for writ of certiorari where
the plaintiff alleged that a 17-year confinement on death row was a
violation of his Eighth Amendment rights. The district court also noted
that Petitioner cannot point to a decision of the Supreme Court that
warrants relief.
Especially given the total absence of Supreme Court precedent that a
prolonged stay on death row violates the Eighth Amendment guarantee
against cruel and unusual punishment, we conclude that execution
following a 31-year term of imprisonment is not in itself a constitutional
violation. As the Ninth Circuit noted, “Numerous other federal and state
26
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 27 of 38

courts have rejected Lackey claims.” Allen v. Ornoski, 435 F.3d 946,
959 (9th Cir.2006) (citing cases); see, e.g., Chambers v. Bowersox, 157
F.3d 560, 568, 570 (8th Cir.1998) (noting that death row delays do not
constitute cruel and unusual punishment because delay results from the
“desire of our courts, state and federal, to get it right, to explore ... any
argument that might save someone's life”); White v. Johnson, 79 F.3d
432, 439 (5th Cir.1996) (“The state’s interest in deterrence and swift
punishment must compete with its interest in insuring that those who are
executed receive fair trials with constitutionally mandated safeguards . .
. . White has benefited [sic] from this careful and meticulous process and
cannot now complain that the expensive and laborious process of habeas
corpus appeals which exists to protect him has violated other of his
rights.”).
Id. (alteration in original).
Based on the foregoing, this Court concludes that Petitioner is not entitled to
relief based on his Claim III.1

Claim IV - Petitioner’s Claims Regarding Improper Closing Argument at the Penalty
Trial
During his closing statement at Petitioner’s resentencing trial, the prosecutor
made the following argument:

1

The undersigned, who received this case this past January, points out that
Petitioner’s death sentence was overturned in 1990 and the typically lengthy death
penalty review process restarted anew after the 1999 resentencing. Accordingly,
Petitioner’s assertion that he has been languishing under a death sentence for over forty
years is inaccurate. He has been subject to the current death sentence for eighteen
years.
27
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 28 of 38

So, the next question is: How dangerous is [Petitioner]? How dangerous
is he? I say to you, ladies and gentlemen, he’s a chronic criminal who
represents an ongoing escalating threat to children, the community, and
to society. He’s a walking time bomb.
He exploded on April the 23rd, 1976, in Clayton County and he exploded
again on May the 4th, 1976, in Cobb County. And he still has those same
tendencies, and he’ll explode again. He made the deliberate choice to kill
Lori. And he did.
[Res. Ex. 33, pp. 97-98].
At the time of Petitioner’s resentencing trial, Georgia law stated that “[n]o
attorney in a criminal case shall argue to or in the presence of the jury that a defendant,
if convicted, may not be required to suffer the full penalty imposed by the court or jury
because pardon, parole, or clemency of any nature may be granted.” O.C.G.A. §
17-8-76 (1995). According to Petitioner, the prosecutor’s statement violated that
statute because the only way that he could pose a threat to children is if he were
released. Trial counsel did not object to this statement, and the Georgia Supreme
Court deemed the claim procedurally defaulted.
In concluding that the claim brought under the statute was procedurally
defaulted, the Georgia Supreme Court further found no cause and prejudice to lift the
procedural bar, stating, “[b]ased upon our review of the argument, we find no error that
overcomes this procedural default. It was not improper for the prosecutor to argue

28
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 29 of 38

[Petitioner]’s future dangerousness, and this argument was too indirect to constitute
a reference to parole, which was never mentioned.” Presnell, 551 S.E.2d at 733.
Because the prohibition of mentioning parole and/or clemency during a trial is
a matter of state statute and nothing in the Constitution prevents prosecutors from
talking about parole, Simmons v. South Carolina, 512 U.S. 154, 168 (1994)
(“[N]othing in the Constitution prohibits the prosecution from arguing any truthful
information relating to parole or other forms of early release.”), this Court is bound by
the Georgia Supreme Court’s interpretation of the statute and of what constitutes (and
what does not constitute) a violation of the statute. As the state court concluded that
there was no violation of the statute, Petitioner has no basis to complain about the
prosecutor’s comment under § 2254.
This Court further points out that the United States Supreme Court has held that
comments relating to a death penalty defendant’s future dangerousness are permissible
during a sentencing trial. Simmons v. South Carolina, 512 U.S. 154, 162-63 (1994).
As such, this Court finds that the Georgia Supreme Court’s conclusion in response to
this argument that “[i]t was not improper for the prosecutor to argue [Petitioner]’s
future dangerousness,” Presnell, 551 S.E.2d at 733 (citation omitted), to be a
reasonable application of constitutional law entitled to § 2254(d) deference.

29
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 30 of 38

Claim V - Petitioner’s Contention that Georgia’s Lethal Injection Protocol will Violate
his Eighth Amendment Rights
In his Claim V, Petitioner asserts that Georgia’s lethal injection protocols put
him at serious risk of being subjected to cruel and unusual punishment in violation of
the Eighth Amendment. However, this Court has repeatedly held that claims raising
challenges to lethal injection procedures should be brought under 42 U.S.C. § 1983
rather than in a habeas corpus proceeding. See Tompkins v. Secretary, Dept. of
Corrections, 557 F.3d 1257, 1261 (11th Cir. 2009). This is especially relevant in light
of the well-documented problems that states, including Georgia, have encountered
obtaining the drugs necessary for lethal injections and the changes that Georgia has
made in its lethal injection protocol. See generally, Bill Rankin, et al., Death Penalty,
Atl. J. Const., Feb. 17, 2014 at A1 (discussing the increasing reluctance of drug
manufacturers and compounding pharmacies to supply drugs for executions);
DeYoung v. Owens, 646 F.3d 1319, 1323 (11th Cir. 2011). It is quite possible that
Georgia’s protocols will change between now and the time that Petitioner’s execution
date is set, rendering moot any ruling by this Court. This Court also points out that
bringing this claim under § 1983 would likely work to Petitioner’s substantial
advantage because he will be able to conduct discovery without leave of court, and he
will be more likely to have a hearing. Accordingly, Petitioner’s challenge to Georgia’s
30
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 31 of 38

lethal injection protocol will be denied without prejudice to his raising the claim in a
§ 1983 action.

Claim XLII - Cumulative Error
In his final ground for relief, Petitioner very briefly asserts that the cumulative
effect of the unconstitutional incidents at Petitioner’s capital trial served to deprive him
of his right to a fair trial. Cumulative error analysis addresses the possibility that “[t]he
cumulative effect of two or more individually harmless errors has the potential to
prejudice a defendant to the same extent as a single reversible error.” United States v.
Rosario Fuentez, 231 F.3d 700, 709 (10th Cir. 2000). However, in order for a court
to perform a cumulative error analysis, there first must be multiple errors to analyze,
and this Court has not identified such error. Accordingly, Petitioner is not entitled to
relief with respect to his Claim XLII.

Claims Petitioner Failed to Address in his Final Brief
Claims Where Petitioner Failed to Make any Showing under § 2254(d) and
Successive Claims
Petitioner did not discuss the remaining Claims that survive2 in his final brief,
and this Court has carefully reviewed those claims as raised in the amended petition.
2

Those Claims are: portions of I, VIII through XVII, XX through XXII, XXIV
through XXVI, XXXV and XXXVIII through XLI.
AO 72A
(Rev.8/8
2)

31

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 32 of 38

The majority of those claims (all except portions of Claim I and Claims XII, XXVI,
XXXVIII, XXXIX, XL, and XLI) were raised before the Georgia Supreme Court in
Petitioner’s direct appeal. The state court reviewed those claims on their merits, and
concluded that they were all unavailing. Given the exhaustion requirement mandated
by § 2254(b)(1)(A), the § 2254(d) inquiry is the penultimate question in federal habeas
corpus jurisprudence when a petitioner challenges a state court conviction. Despite that
fact – and the fact that the heavy burden of § 2254(d) rests solely with Petitioner, see
Woodford v. Visciotti, 537 U.S. 19, 25 (2002); Schwab v. Crosby, 451 F.3d 1308,
1329 (11th Cir. 2006); Hunter v. Secretary. Dep't of Corr., 395 F.3d 1196, 1203 (11th
Cir. 2005) – Petitioner made no argument whatsoever that the state court’s
determinations were not entitled to deference under § 2254(d). Accordingly, this Court
concludes that, with respect to his Claims VIII through XI, XIII through XVII, XX
through XXII, XXIV through XXVI, and XXXV, Petitioner has failed to demonstrate
that he is entitled to relief.
Petitioner’s Claims XXXVIII and XXXIX are challenges to the grand jury that
indicted Petitioner in 1976. In his Claims XL and XLI Petitioner claims that he did not
attempt to or intend to kill the victim in this case and further alleges that he is actually
innocent. All four of these claims relate to his conviction and could have been raised
in his first habeas corpus petition in this Court. As such, the claims are successive.
32
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 33 of 38

Pursuant to 28 U.S.C. § 2244(b)(3), before this Court may consider a second or
successive § 2254 claim, Petitioner must first move in the Eleventh Circuit for an order
authorizing this Court to consider it. Because Petitioner has obtained no such order,
this Court may not consider these four claims. See Guenther v. Holt, 173 F.3d 1328,
1330 (11th Cir. 1999) (noting that § 2244(b)(3)(A) is either a jurisdictional bar or a
condition precedent requiring appellate certification prior to review in the district
court).

Remaining Claims
Remaining Portions of Claim I - Ineffective Assistance
In his amended petition, Petitioner sets forth a laundry list of approximately
twenty purported instances of ineffective assistance of both trial and appellate counsel,
[Doc. 13 at 75-80], that he did not mention in his final brief. With those claims,
Petitioner seemingly accuses his lawyers of mishandling every single aspect of his
case. These claims are, however, entirely conclusory in that they fail to provide even
the most basic information or argument in support. Petitioner claims, for example, that
“[t]rial counsel failed to file numerous pre-trial motions to preserve and protect
[Petitioner]’s rights.,” [id. at 77], but he makes no mention of what motions trial
counsel should have filed, why counsel was unreasonable for failing to file them, and
33
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 34 of 38

how that failure caused Petitioner prejudice. Accordingly, this Court concludes that
those remaining portions of Claim I that were not discussed above do not entitle
Petitioner to relief.

Claim XII - That Petitioner was Incompetent to Stand Trial
In his Claim XII, Petitioner claims that he was not mentally competent to stand
trial.

Although the state habeas corpus court concluded that this claim was

procedurally defaulted, [Resp. Exh. 119 at 21], this Court held in the order of March
25, 2013, [Doc. 28 at 19], that a claim that a criminal defendant was tried while
incompetent cannot be procedurally defaulted under Adams v. Wainwright, 764 F.2d
1356 (11th Cir. 1985). Accordingly, Petitioner is entitled to a merits review of the
claim.
However, other than making the statement in his amended petition that
Petitioner “suffered from a constellation of mental illnesses that left him unable ‘to
understand the nature and object of the proceedings against him, to consult with
counsel, and to assist in preparing his defense may not be subject to trial,’” [Doc. 13
at 141 quoting Drope v. Missouri, 420 U.S. 162, 171 (1975)], Petitioner points to no
evidence that might tend to support his contention that he was so incompetent at the
time of his resentencing trial that he did not understand the nature of the proceedings
34
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 35 of 38

against him or that he could not communicate with and assist his counsel.
Accordingly, this Court must conclude that Petitioner has failed to establish an
entitlement to relief based on his claim that he was too mentally incompetent to be
tried.

Claim XXVI - That the State Court Improperly Applied Proportionality Review
In his Claim XXVI, Petitioner asserts that his rights were violated when the
Georgia Supreme Court failed to properly conduct the proportionality review required
by state law. In affirming Petitioner’s sentence after his resentencing trial, the Georgia
Supreme Court held that “the death sentence in this case is not excessive or
disproportionate to the penalty imposed in similar cases, considering both the crimes
and the defendant.” Presnell, 551 S.E.2d at 734 (listing cases that were comparable to
Petitioner’s). The court cited to O.C.G.A. § 17–10–35(c)(3) which requires the court
to determine “[w]hether the sentence of death is excessive or disproportionate to the
penalty imposed in similar cases, considering both the crime and the defendant.”
In approving Georgia’s death penalty scheme, the Supreme Court cited
favorably to the proportionality review requirement as a “provision to assure that the
death penalty will not be imposed on a capriciously selected group of convicted
defendants,” Gregg v. Georgia, 428 U.S. 153, 204 (1976), and noted that “[i]t is
35
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 36 of 38

apparent that the Supreme Court of Georgia has taken its [proportionality] review
responsibilities seriously,” id. at 205. The Court also noted that
The provision for appellate review in the Georgia capital-sentencing
system serves as a check against the random or arbitrary imposition of the
death penalty. In particular, the proportionality review substantially
eliminates the possibility that a person will be sentenced to die by the
action of an aberrant jury. If a time comes when juries generally do not
impose the death sentence in a certain kind of murder case, the appellate
review procedures assure that no defendant convicted under such
circumstances will suffer a sentence of death.
Id. at 206.
This Court stresses, however, that the Supreme Court has concluded that
proportionality review is not required by the Constitution “where the statutory
procedures adequately channel the sentencer’s discretion,” McCleskey, 481 U.S. at
306 (citing Pulley v. Harris, 465 U.S. 37, 50-51 (1984)), and Georgia’s statutory
procedures are adequate. Collins v. Francis, 728 F.2d 1322, 1343 (11th Cir. 1984)
(“[I]t appears clear that the Georgia [death penalty] system contains adequate checks
on arbitrariness to pass muster without proportionality review.”) (internal quotations
and citations omitted).

As the proportionality review is not required by the

Constitution, Petitioner cannot claim relief under § 2254 for the Georgia Supreme
Court’s purported failure to properly carry out its statutory mandate. Lindsey v. Smith,
820 F.2d 1137, 1154 (11th Cir. 1987) (“[W]e refuse to mandate as a matter of federal

36
AO 72A
(Rev.8/8
2)

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 37 of 38

constitutional law that where, as here, state law requires [proportionality] review,
courts must make an explicit, detailed account of their comparisons.”).
In response to Petitioner’s argument, the fact that the Georgia Supreme Court
routinely cites to overturned cases in its death penalty proportionality review has been
reported previously. Bill Rankin, et al., High Court Botched Death Reviews, ATL. J.
CONST., Sept. 26, 2007 at A1. In rejecting a challenge by a capital defendant regarding
the fact that some of the cases used in his proportionality review had been later
reversed, the Georgia Supreme Court stressed that, with proportionality review, it is
the “reaction of the sentencer to the evidence before it which concerns this court and
which defines the limits which sentencers in past cases have tolerated.” Davis v.
Turpin, 539 S.E.2d 129, 131 (Ga. 2000). In other words, the proportionality review
focuses on what is acceptable to jurors who impose the death penalty, and when “a
reaction is substantially out of line with reactions of prior [juries], then this court must
set aside the death penalty as excessive.” Id. Accordingly, the fact that a death penalty
is later overturned does not invalidate a proportionality review that cited to that death
penalty case because the Georgia Supreme Court is not concerned with what happened
after a person is initially sentenced by a jury. Id.

Conclusion
Having considered all of Petitioner’s claims, this Court concludes that Petitioner
has failed to establish any entitlement to relief under 28 U.S.C. § 2254. As such, his
AO 72A
(Rev.8/8
2)

37

Case 1:07-cv-01267-WBH Document 76 Filed 05/22/17 Page 38 of 38

petition for a writ of habeas corpus is DENIED (except that Petitioner’s Claim V,
regarding Georgia’s lethal injection protocol, is DENIED without prejudice to his
raising the claim in a proceeding under 42 U.S.C. § 1983). This matter is hereby
DISMISSED, and the Clerk is DIRECTED to CLOSE this action.
IT IS SO ORDERED, this 22nd day of May, 2017.

38
AO 72A
(Rev.8/8
2)

Petitioner’s Appendix 4

Petitioner’s Appendix 5

SUPREME COURTOF GEORGIA
Case No. S06E1249

Atlanta, Noverrtbet.06, 2006

The Honorable Supreme Court ~et pursuant to adjournment.
The following order was passed:

VIRGIL DE~ANO PRESNELL. v.

DERRICK·SCHOFIELD, .WARDEN

From.the Supertor Court of Butts County.
Upon consideration of the Application for Certificate of
Probabie, Cause

tq appeal the denia.l of habeas corpus; it is

ordered that it be hereby denied.

02V768

SUPREME COURT OF TH,E STAT~ OF GEORGIA.

Clerk's Office, Atlanta ·
I hereby certify that the above is a true extract from
the minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

! / ~~

Deputy Clerk.

!Responde;t;s E~hib; No~l'.25
\ Case No. 1:07-CV-1267

Petitioner’s Appendix 6

